<html>
<title> - TO CONSIDER A DISCUSSION DRAFT ENTITLED ``INCREASING MANUFACTURING COMPETITIVENESS THROUGH IMPROVED RECYCLING ACT OF 2012'' AND H.R. 2997, ``THE SUPERFUND COMMON SENSE ACT''</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






  TO CONSIDER A DISCUSSION DRAFT ENTITLED ``INCREASING MANUFACTURING 
COMPETITIVENESS THROUGH IMPROVED RECYCLING ACT OF 2012'' AND H.R. 2997, 
                   ``THE SUPERFUND COMMON SENSE ACT''

=======================================================================

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON ENVIRONMENT AND THE ECONOMY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 27, 2012

                               __________

                           Serial No. 112-156



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

81-483 PDF                WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001









                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman

JOE BARTON, Texas                    HENRY A. WAXMAN, California
  Chairman Emeritus                    Ranking Member
CLIFF STEARNS, Florida               JOHN D. DINGELL, Michigan
ED WHITFIELD, Kentucky                 Chairman Emeritus
JOHN SHIMKUS, Illinois               EDWARD J. MARKEY, Massachusetts
JOSEPH R. PITTS, Pennsylvania        EDOLPHUS TOWNS, New York
MARY BONO MACK, California           FRANK PALLONE, Jr., New Jersey
GREG WALDEN, Oregon                  BOBBY L. RUSH, Illinois
LEE TERRY, Nebraska                  ANNA G. ESHOO, California
MIKE ROGERS, Michigan                ELIOT L. ENGEL, New York
SUE WILKINS MYRICK, North Carolina   GENE GREEN, Texas
  Vice Chairman                      DIANA DeGETTE, Colorado
JOHN SULLIVAN, Oklahoma              LOIS CAPPS, California
TIM MURPHY, Pennsylvania             MICHAEL F. DOYLE, Pennsylvania
MICHAEL C. BURGESS, Texas            JANICE D. SCHAKOWSKY, Illinois
MARSHA BLACKBURN, Tennessee          CHARLES A. GONZALEZ, Texas
BRIAN P. BILBRAY, California         TAMMY BALDWIN, Wisconsin
CHARLES F. BASS, New Hampshire       MIKE ROSS, Arkansas
PHIL GINGREY, Georgia                JIM MATHESON, Utah
STEVE SCALISE, Louisiana             G.K. BUTTERFIELD, North Carolina
ROBERT E. LATTA, Ohio                JOHN BARROW, Georgia
CATHY McMORRIS RODGERS, Washington   DORIS O. MATSUI, California
GREGG HARPER, Mississippi            DONNA M. CHRISTENSEN, Virgin 
LEONARD LANCE, New Jersey            Islands
BILL CASSIDY, Louisiana              KATHY CASTOR, Florida
BRETT GUTHRIE, Kentucky              JOHN P. SARBANES, Maryland
PETE OLSON, Texas
DAVID B. McKINLEY, West Virginia
CORY GARDNER, Colorado
MIKE POMPEO, Kansas
ADAM KINZINGER, Illinois
H. MORGAN GRIFFITH, Virginia

                                 _____

              Subcommittee on Environment and the Economy

                         JOHN SHIMKUS, Illinois
                                 Chairman
TIM MURPHY, Pennsylvania             GENE GREEN, Texas
  Vice Chairman                        Ranking Member
ED WHITFIELD, Kentucky               TAMMY BALDWIN, Wisconsin
JOSEPH R. PITTS, Pennsylvania        G.K. BUTTERFIELD, North Carolina
MARY BONO MACK, California           JOHN BARROW, Georgia
JOHN SULLIVAN, Oklahoma              DORIS O. MATSUI, California
CHARLES F. BASS, New Hampshire       FRANK PALLONE, Jr., New Jersey
ROBERT E. LATTA, Ohio                DIANA DeGETTE, Colorado
CATHY McMORRIS RODGERS, Washington   LOIS CAPPS, California
GREGG HARPER, Mississippi            JOHN D. DINGELL, Michigan (ex 
BILL CASSIDY, Louisiana                  officio)
CORY GARDNER, Colorado               HENRY A. WAXMAN, California (ex 
JOE BARTON, Texas                        officio)
FRED UPTON, Michigan (ex officio)

                                  (ii)














                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. John Shimkus, a Representative in Congress from the State of 
  Illinois, opening statement....................................     1
    Prepared statement...........................................     4
Hon. Gene Green, a Representative in Congress from the State of 
  Texas, opening statement.......................................    18
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, opening statement....................................    19
    Prepared statement...........................................    21
Hon. Cory Gardner, a Representative in Congress from the State of 
  Colorado, opening statement....................................    22
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, opening statement...............................    22

                               Witnesses

Hon. Billy Long, a Representative in Congress from the State of 
  Missouri.......................................................    24
    Prepared statement...........................................    27
Mathy Stanislaus, Assistant Administrator, Office of Solid Waste 
  and Emergency Response, Environmental Protection Agency........    31
    Prepared statement...........................................    34
    Answers to submitted questions...............................   137
Charles D. Johnson, Vice President, Environment, Health, and 
  Safety, The Aluminum Association, Inc..........................    57
    Prepared statement...........................................    60
    Answers to submitted questions \1\...........................
Lynn M. Bragg, President, Glass Packaging Institute..............    65
    Prepared statement...........................................    67
    Answers to submitted questions...............................   143
Jonathan Gold, Senior Vice President, Recovery and Recycling 
  Division, The Newark Group, on Behalf of The Paper Recycling 
  Coalition......................................................    78
    Prepared statement...........................................    80
    Answers to submitted questions...............................   145
John H. Skinner, Executive Director and Chief Executive Officer, 
  Solid Waste Association of North America.......................    84
    Prepared statement...........................................    86
Susana M. Hildebrand, Chief Engineer, Texas Commission on 
  Environmental Quality..........................................    96
    Prepared statement...........................................    98
    Answers to submitted questions...............................   146
Walter Bradley, Government and Industry Relations Representative, 
  Dairy Farmers of America.......................................   100
    Prepared statement...........................................   102
Ed Hopkins, Director, Environmental Quality Program, Sierra Club.   106
    Prepared statement...........................................   108
    Answers to questions from Mr. Shimkus........................   153
    Answers to submitted questions...............................   155

                           Submitted Material

Discussion Draft of H.R. --------, the ``Increasing Manufacturing 
  Competitiveness Through Improved Recycling Act of 2012,'' 
  submitted by Mr. Shimkus.......................................     7
H.R. 2997, ``The Superfund Common Sense Act,'' submitted by Mr. 
  Shimkus........................................................    15
Letter, dated June 25, 2012, from Dennis Sabourin, Executive 
  Director, National Association for PET Container Resources, to 
  Mr. Shimkus, submitted by Mr. Shimkus..........................   130
Letter, dated July 3, 2012, from Timothy R. Gablehouse, Director, 
  Government Relations, National Association of SARA Title III 
  Program Officials, to committee leadership, submitted by Mr. 
  Green..........................................................   132
Letter, dated June 26, 2012, from Bob Stallman, President, 
  American Farm Bureau Federation, to Mr. Shimkus and Mr. Green, 
  submitted by Mr. Shimkus.......................................   135

----------
\1\ Mr. Johnson did not answer submitted questions for the record 
  by the time of printing.

 
  TO CONSIDER A DISCUSSION DRAFT ENTITLED ``INCREASING MANUFACTURING 
COMPETITIVENESS THROUGH IMPROVED RECYCLING ACT OF 2012'' AND H.R. 2997, 
                   ``THE SUPERFUND COMMON SENSE ACT''

                              ----------                              


                        WEDNESDAY, JUNE 27, 2012

                  House of Representatives,
       Subcommittee on Environment and the Economy,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:18 a.m., in 
room 2322 of the Rayburn House Office Building, Hon. John 
Shimkus (chairman of the subcommittee) presiding.
    Members present: Representatives Shimkus, Murphy, Pitts, 
Harper, Cassidy, Gardner, Upton (ex officio), Green, 
Butterfield, Dingell (ex officio), and Waxman (ex officio).
    Staff present: Nick Abraham, Legislative Clerk; Anita 
Bradley, Senior Policy Advisor to Chairman Emeritus; Jerry 
Couri, Senior Environmental Policy Advisor; Dave McCarthy, 
Chief Counsel, Environment and the Economy; Andrew Powaleny, 
Deputy Press Secretary; Tina Richards, Counsel, Environment and 
the Economy; Chris Sarley, Policy Coordinator, Environment and 
the Economy; Jacqueline Cohen, Democratic Counsel; Greg Dotson, 
Democratic Energy and Environment Staff Director; Kristina 
Friedman, Democratic EPA Detailee; and Caitlin Haberman, 
Democratic Policy Analyst.
    Mr. Shimkus. The committee will now come to order. Most 
people know how we will conduct this day's hearing. We have 
four panels. We actually have two subject matters. The first 
panel will go relatively quickly, it will be Congressman Billy 
Long, and then the second panel will be the EPA, and then we 
will follow it by panel three and panel four, so probably a 
productive couple of hours this morning.
    So with that we would like to welcome you all, and I 
recognize myself for 5 minutes for my opening statement.

  OPENING STATEMENT OF HON. JOHN SHIMKUS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    This subcommittee set an official record last week for 
length of a two-panel hearing, which was very short, but today 
we make up for it with four panels. The chair appreciates 
Members' judicious use of their time last week and hopes that 
we can have a repeat performance.
    On behalf of the whole subcommittee, we extend 
congratulations to a lucky guy, Jonathan Elkin, and our very 
best wishes to him and his new bride, minority counsel 
Jacqueline Cohen, who were recently married.
    Throughout this Congress, our committee has been 
investigating places where Congress can enhance opportunities 
for growing the private sector of our economy, as well as 
examining places where duplicative red tape creates more 
burdens, but not greater protection. Our hearing today will 
examine legislative measures that touch upon each of these 
concepts.
    The first bill is a Discussion Draft which directs EPA to 
collect better information on recyclable materials. As 
cochairman of the House Recycling Caucus, I think the aspect we 
are looking into is particularly interesting and I think we 
should better understand the need for this legislation.
    For decades, the EPA has been publishing a biannual report 
showing what products and materials are commonly collected and 
disposed. All of these materials, including paper, glass, and 
aluminum, are generated by residential and commercial sectors 
and are recycled, reused, combusted, or land-filled.
    Despite all that has been accomplished in the collection of 
recyclables, there is concern among several recyclers that a 
considerable amount of quality feedstock materials are not 
ultimately being processed and reused. Many recyclers believe 
asking smarter questions and collecting better data will lead 
us to solutions to this problem.
    The Discussion Draft directs the EPA, with the Energy and 
Commerce Departments, to gather and review voluntarily 
submitted information on waste streams and recycling from 
government and private entities. Specifically, the Discussion 
Draft requires EPA to report to Congress within 2 years on each 
type of recycled material separately and cover the quantities 
collected, the method of collection, the amount of recoverable 
material, and amount disposed. Importantly, the Discussion 
Draft leaves it to the private sector to figure out how to best 
use this information and does not create Federal recycling 
regulations.
    The second bill under consideration today is H.R. 2997, the 
Superfund Common Sense Act. The bill arises from the concern 
that courts or EPA will spell out something in law that is 
unwarranted or redundant and never directed by Congress.
    Currently, Section 103 of the Comprehensive Environmental 
Response Compensation and Liability Act, commonly known as 
CERCLA; and Section 304 of the Emergency Planning and Community 
Right-to-know Act, commonly known as EPCRA, establish reporting 
requirements for the release of hazardous substances that are 
above reportable quantities.
    Superfund also imposes strict, joint, several, and 
retroactive liability for the release of hazardous substances 
and has response and abatement provisions. While manure has not 
been classified as a hazardous waste, concern exists--based on 
past legal challenges--that litigation or future regulation 
could change that equation.
    Of note, in 2008, EPA issued a final rule exempting all 
reporting requirements for air releases from manure at farms 
under Section 103 of CERCLA. The final rule also exempted 
certain livestock farms, based upon size, that had air 
emissions from animal waste that met or exceeded the level for 
reporting under EPCRA Section 304. However, on October 21, 
2011, EPA stated in the Federal Register it was ``on a separate 
track'' to develop regulations to amend reporting requirements 
for livestock operations for air emissions under CERCLA and 
EPCRA.
    H.R. 2997 clarifies manure is not included in the meaning 
of ``hazardous substance'' or a ``pollutant or contaminant'' 
under CERCLA. H.R. 2997 also eliminates the emissions reporting 
requirement for releases associated with manure under CERCLA 
Section 103 and Section 304 of EPCRA. In addition, by changing 
the definition of ``hazardous substance,'' ``pollutant,'' or 
``contaminant'' under CERCLA, H.R. 2997 also removes liability 
for releases of manure and precludes use of CERCLA sections 
dealing with response authorities and abatement actions.
    While H.R. 2997 makes explicit the application of CERCLA 
and EPCRA as it relates to releases associated with manure, the 
bill preserves the applicability of other Federal, State, and 
local environmental law as it relates to the definition of 
manure, or the responsibilities or liabilities of persons 
regarding the treatment, storage, or disposal of manure.
    I want to thank all of our witnesses for coming here to 
lend their time and experience to us. I look forward to their 
testimony.
    My time has expired and now I would like to recognize the 
ranking member of the subcommittee, Mr. Green from Texas, for 5 
minutes.
    [The prepared statement of Mr. Shimkus follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



   OPENING STATEMENT OF HON. GENE GREEN, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Green. Mr. Chairman, I want to thank you for holding 
this hearing today, and I would like to welcome our witnesses 
and particularly our fellow Member from Missouri, Congressman 
Long. Thank you for coming.
    Today, we are here to discuss two different bills--a 
Discussion Draft entitled ``Increasing Manufacturing 
Competitiveness through Improved Recycling Act of 2012'' 
offered by our colleague on our committee, Mr. Sullivan from 
Oklahoma; and H.R. 2997, the Superfund Common Sense Act, 
offered by Congressman Long from Missouri. While I appreciate 
your willingness to testify today, I have some concerns about 
your bill which would exempt manure from cleanup injunction and 
reporting authorities available under the Comprehensive 
Environmental Response, Compensation, and Liability Act of 
1980, also referred as Superfund; and the Emergency Planning 
and Community Right-to-Know Act of 1986.
    The Superfund Act, as amended by amendments over the years, 
authorizes Federal cleanup of releases of hazardous substances, 
imposes liability for cleanup, and provides a restoration and 
replacement of natural resources affected by the release. I 
have two Superfund sites in our district and so I can 
appreciate the necessity of the program.
    While I share and appreciate your concern that small farms 
not be required to file reports on animal waste, I think you 
need to recognize that exempting concentrated animal feeding 
operations, also known as CAFOs, is highly controversial and 
could have serious ramifications for communities across our 
country should contamination occur at a large agribusiness 
facility. CAFOs store very large amounts of animal waste and 
contrary facilities which does not occur naturally at most 
farms. That is why the EPA currently differentiates between the 
two and the small farms are exempted.
    Studies have shown that these CAFOs emit large amounts of 
hazardous ammonia and hydrogen sulfide, which have been linked 
to health concerns including chronic respiratory, neurological, 
and other problems. That is why the law requires reporting 
because emergency response removal and hazardous release 
controls depend on the accurate information in order to protect 
public health and the environment. H.R. 2997 would eliminate 
both the notification and reporting requirements for all 
releases associated with manure, including ammonia and hydrogen 
sulfide air releases.
    Reporting aside, the bill also prevents EPA from using 
CERCLA to clean up hazardous substance releases from manure or 
issuing an order to a facility to clean up releases of 
hazardous substances resulting from manure components, meaning 
that the bill would exempt large agribusiness from Federal 
liability of any natural resource damage as it may result from 
damage and spills.
    I mentioned before I have concerns about small farms, and I 
know our committee is interested in recycling on our second 
bill. Obviously, a lot of that could be recycled in very 
beneficial use. But my concern is H.R. 2997 with the cost of 
cleanup, damage by that hazardous substance, it is the 
responsibility of the ratepayers and local communities.
    The second bill we are looking at today is Increasing 
Manufacturing Competitiveness through Improved Recycling Act. I 
agree that it is important for us to understand where 
recyclables collected through recycling programs end up. Better 
information leads to more efficient recycling that maximizes 
environmental gain and material efficiency and makes sense for 
our businesses. However, I am concerned that by making a survey 
voluntary, the participation would not lead to the type of data 
that we are aiming for.
    I am also struggling to understand why States or trade 
associations cannot do the same type of voluntary survey. Given 
our budget issues, I think we should ensure that data could not 
be obtained through existing reporting regiments.
    With that, I look forward to the testimony of our 
witnesses, Mr. Chairman, and thank you for calling the hearing.
    Mr. Shimkus. I thank my friend. And I would like to 
recognize the chairman of the full committee, Mr. Upton, for 5 
minutes.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Well, thank you, Mr. Chairman.
    Today, we are going to hear testimony on two bills--Mr. 
Sullivan's Discussion Draft on recycling and Mr. Long's bill 
clarifying that manure is not defined as a hazardous substance 
under CERCLA.
    Monday, I visited a paper recycling plant in Michigan 
employing hundreds of folks who make 100 percent recycled 
paperboard. In my view, these private sector innovators are the 
real green jobs that we need to be promoting. The folks at this 
facility in Kalamazoo are concerned about getting access to 
high quality paper fibers that they can recycle into new paper 
products, whether it be cartons, cereal boxes, or other types 
of packaging. They are frustrated that more than 40 percent of 
good paper fiber goes overseas or into a landfill. They are not 
asking for Federal laws mandating recycling, but they do feel 
that better information is needed both to help the American 
public understand recycling and to help the recycling community 
gain access to the types and quantities of feedstock that it 
needs to be competitive.
    The second bill that we are going to consider is H.R. 2997, 
the Superfund Common Sense Act, by Mr. Long. This legislation 
will remove a lot of anxiety and bureaucratic compliance cost 
for folks who operate animal feeding operations. The bill would 
do two things. First, it clarifies that manure is not included 
in CERCLA as a hazardous substance or a pollutant or 
contaminant. This alleviates farmer and rancher worries over 
possible CERCLA exposure for manure, but it preserves claims 
under a host of other environmental laws, from the Clean Water 
Act and Clean Air Act to various State and local ordinances.
    Second, the bill eliminates some red-tape paperwork 
reporting concerns. So Mr. Chairman, we all expect animal 
feeding operations to operate responsibly and with respect for 
their neighbors and the law. But today we ask is it more 
important to apply lots of laws to one operation or just the 
right ones?
    So to our witnesses I say thanks for coming. I yield back 
to other Members that would like to speak. Mr. Harper? Mr. 
Gardner? Mr. Gardner.
    [The prepared statement of Mr. Upton follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    
  OPENING STATEMENT OF HON. CORY GARDNER, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Mr. Gardner. Thank you, Chairman Upton, for the 
opportunity, for yielding time. And thank you, Chairman Shimkus 
and Ranking Member Green as well for convening this hearing on 
two very important pieces of legislation which will help our 
agricultural community improve energy efficiency and increase 
international competitiveness.
    The first bill that we have talked about--Increasing 
Manufacturing Competitiveness through Improved Recycling Act--
directs the EPA and stakeholders to take steps to improve data 
collection related to the recovery of recyclable material and 
review ways to increase the collection of recyclable materials. 
EPA Franklin Associates report--we found out that the State of 
Colorado generates approximately 157,000 tons of glass and only 
32,000 tons, or 21 percent, is recycled, making a big 
difference.
    One of my constituents, an employer that has over 200 men 
and women working at the facility, Owens-Illinois, is very 
interested in the issues of recycling, and as I toured their 
facility learning about what it takes to make their glass 
product, the important role that recycling has within that 
industry, and that is why I think this legislation could be 
helpful.
    The second bill we are considering today will provide 
needed certainty to our agricultural community and help protect 
the livelihood of farmers and ranchers throughout the United 
States. My district is the 11th largest agricultural producing 
district in Congress. Many of our producers use concentrated 
animal feeding operations, or CAFOs, and CERCLA and the 
Emergency Planning and Community Right-to-Know Act could soon 
be used to subject manure to redundant requirements or 
stringent regulations.
    This H.R. 2997 would exclude animal manure from the 
definition of hazardous substance. In a letter that we received 
from the Colorado Livestock Association, they believe that H.R. 
2997 ``will reduce unproductive expenditures by individuals 
engaged in producing the Nation's supplies of protein and milk 
products without in any way compromising the health and safety 
of the public. CAFOs are used throughout Colorado and this 
legislation is essential to protecting our producers from undue 
regulations that could significantly hurt their business.
    A thank you to our colleague from Missouri, and certainly 
thank you, Chairman, and I yield back my time.
    Mr. Shimkus. The time has been yielded back.
    The chair now recognizes the ranking member of the full 
committee, Mr. Waxman, for 5 minutes.

OPENING STATEMENT OF HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Thank you very much, Mr. Chairman.
    Today, we will hear testimony on a bill called the 
Superfund Common Sense Act. While my Republican colleagues will 
talk about the small family farmer with a single cow grazing 
out in the pasture, they will warn of EPA rushing through the 
farm gate, calling a cow patty hazardous and placing costly and 
burdensome requirements on an innocent, freckle-faced farm boy. 
And they will use this imagery to argue that farmers need to be 
protected from Superfund and the EPA.
    We have all heard of what is called a Trojan Horse. I call 
this a Trojan Cow. There is one big problem with the Republican 
narrative--it is completely made up. In reality, this 
legislation is about exempting giant agribusinesses from 
liability if they pollute the land and groundwater.
    Time after time, this committee has put the interests of 
big corporations and their billionaire owners over the 
interests of the struggling middle class.
    Many farming operations comply with the law. But there are 
times when some do not. And when that happens, liability under 
Superfund is essential. That is common sense.
    An example is what happened in Waco, Texas, where poultry 
factory farms contaminated the sole source of drinking water. 
The city successfully made a claim under Superfund for 
reimbursement for the cost of cleaning up the phosphorous 
pollution. Without Superfund, the local taxpayers would have 
been defenseless.
    Another example occurred in Tulsa, Oklahoma, which 
recovered funds from Tyson Foods under Superfund when poultry 
operations there contaminated the city's water.
    That is why I am so worried about this piece of 
legislation, despite its very nice name, because it is being 
promoted under false pretenses. We have already voted over 250 
times on the House Floor to roll back environmental 
protections. And if this bill makes it to the floor, it will 
only add to this total.
    We have considered a bill that would have blocked President 
Obama's historic tailpipe standards that will save consumers 
thousands of dollars and dramatically reduce our dependence on 
foreign oil. The false pretense for that bill was that money-
saving fuel efficiency standards are an energy tax.
    We passed a bill to allow mining operations like the one in 
Libby, Montana, to spew cancer-causing particles into 
neighboring communities. Well, the rationale for that bill was 
that we needed to prevent EPA from regulating farm dust even 
though EPA told us they have no intention of regulating farm 
dust.
    Last week, the House passed legislation that included the 
Latta amendment, which would cut the heart out of the Clean Air 
Act by gutting the Act's health-based standards. The completely 
unrelated argument for that bill was that we needed to study 
rules that might be proposed on refineries.
    Well, House Republicans have voted to nullify rules to cut 
mercury pollution from waste incinerators, industrial boilers, 
and cement kilns. The argument was that we just need to give 
EPA more time to get the rules right.
    Mr. Chairman, I have said this before and I repeat it 
again: This is the most anti-environment House of 
Representatives in the history of the country. And today, this 
bill is one more effort to make the country safe for pollution 
and I strongly oppose the bill.
    Before I yield back, however, I would like to note that we 
are also examining legislation relating to recycling today. 
While this bill appears likely to accomplish very little, I 
look forward to hearing testimony about it.
    Superfund Common Sense, well, we are all for Superfund and 
common sense, but it is not common sense to put shackles on 
Superfund and let polluters cause serious consequences to the 
taxpayers and the middle-class people living in the communities 
nearby.
    I yield back my time.
    Mr. Shimkus. The gentleman yields back his time.
    Now, the chair recognizes our own freckle-faced farm boy 
from the State of Missouri. Mr. Long, you are recognized for 5 
minutes.

STATEMENT OF HON. BILLY LONG, A REPRESENTATIVE IN CONGRESS FROM 
                     THE STATE OF MISSOURI

    Mr. Long. Thank you.
    First off, I would like to thank you, Chairman Shimkus and 
Ranking Member Green and all of the subcommittee members, for 
allowing me to testify this morning.
    Last year, I introduced a bill which would exempt livestock 
operations from the Comprehensive Environmental Response, 
Compensation, and Liability Act--or CERCLA--regulation. The 
bill, H.R. 2997, or the Superfund Common Sense Act, would also 
exempt livestock operations from Emergency Planning and 
Community Right-to-Know Act, the EPCRA, reporting requirements.
    Livestock producers, along with other small businesses, 
face increasing regulatory uncertainty, much of it stemming 
from potential or proposed Environmental Protection Agency 
rules. The Nation's livestock producers or agricultural 
industry as a whole cannot afford to comply with unnecessary 
regulations.
    The CERCLA law, which we know created the Superfund, was 
enacted in Congress in 1980 because of the Love Canal incident. 
The law was never meant to regulate livestock manure, but its 
activists may use ambiguities in the law to create new 
livestock operation regulations. My bill clarifies that the 
reporting requirements under CERCLA and EPCRA will not apply to 
animal manure or its emissions. It does not make sense to lump 
tens of thousands of farms and livestock producers under the 
same severe liability provisions that apply to nearly 1,300 
Federal Superfund toxic waste sites. My bill will provide more 
certainty for producers and more common sense to these laws.
    If the EPA does not choose to exempt cattle operations from 
released reporting obligations, the operations may be required 
to file daily reports with Federal, State, and local emergency 
responders. Additionally, measuring ammonia from open air beef 
feedlots is impractical since there is no pipe or other way to 
measure ammonia emissions directly. Because ammonia is 
dispersed in the air before measurement, the wind speed and 
direction, air pressure, and temperature all affect emissions. 
Measuring the emission depends on capturing the whole ``cloud'' 
or air sample in a specific time and space. This would require 
all kinds of instruments upwind, downwind from the source, much 
like a complete set of meteorological instruments measuring 
wind speed, direction, pressure, and the like. Since these 
instruments could only measure concentrations at relatively few 
points in the air space of varying size and shape over short 
periods of time, large errors are likely and data would be 
unreliable. These are supposed to be livestock operations, not 
small weather stations.
    Annual continuous release reports may be a continued option 
for large operations, but because emissions from open air beef 
cattle operations also vary depending on the climate, the feed, 
the weather, the age of cattle, and many other variables, there 
is no guarantee the reports would be useful since the emissions 
are obviously not continuous or stable.
    A continuous release by the law's definition ``a release 
that occurs without interruption or abatement or that is 
routine, anticipated, and intermittent and incidental to normal 
operations or treatment processes.'' The release must also be 
``stable in quantity and rate,'' which means that it is 
``predictable and regular in the amount and rate of emission.''
    Finally, neither ammonia nor hydrogen sulfide is a 
regulated hazardous air pollutant under the Clean Air Act.
    I introduced my bill in September of 2011. When the EPA was 
asked for comment, an EPA spokesman stated the following on 
October the 20th, 2011, in the Energy and Environment Daily 
article--``this one joins the growing list of myths being 
perpetuated about the EPA rules.'' And then she added, ``it is 
unfortunate that time is being spent on solving a perceived 
problem that does not exist.'' I will note for the record there 
was no mention of a freckled-face farm boy, but the intent was 
there.
    After they denied it, the next day's Federal Register was 
printed. The EPA is currently in the process of developing a 
rulemaking to amend reporting requirements for livestock 
operations on air emissions under CERCLA Section 103 and EPCRA 
Section 304.
    Also, on November 8, 2011, Congressional Research Service 
report stated that the EPA anticipates it will propose a new or 
revised rule regulating livestock waste in 2012.
    Mr. Chairman, I would also like to mention that the United 
States Department of Agriculture has gotten so out of control 
with regulations. I have had constituents of mine threatened 
with large fines and confiscation of property because their 
small rabbit breeding operation was considered illegal. This 
kind of regulatory overreach does not reflect self-governance, 
and come to think of it, there was a small, freckle-faced boy 
involved in that case. This kind of regulatory overreach does 
not reflect self-governance, which is a fundamental principle 
of our Nation.
    Where does the individual citizen go to vote out an abusive 
regulator or overbearing bureaucrat? Where is that ballot box? 
It is time for us, the United States Congress, to reclaim much 
of the authority we have surrendered to the Executive Branch 
bureaucracy. The Federal Government's job is not to stifle 
economic growth and intimidate the American people. The 
constituents I mentioned earlier only wanted to breed rabbits 
and be left alone in peace, but they instead were punished by 
an expensive and time-consuming process brought on by 
ridiculous regulations. I would mention that they had ceased 
raising rabbits for a few years before they brought this 
charge, which was also ridiculous.
    I would also like to point out what happened in Illinois 
last August. At a town hall meeting where President Obama held 
in Atkinson, Illinois, a local corn and soybean farmer asked 
the President about more possible EPA regulations covering 
dust, noise, and water runoff. The President said, ``the folks 
in Washington like to get all ginned up'' about things that 
aren't necessarily happening. Then, he instructed the gentleman 
to contact the USDA. Well, one reporter followed this direction 
and called the USDA. After several phone calls and referrals to 
various agencies, including the Illinois Department of 
Agriculture and the Illinois Farm Bureau, an answer was not 
found.
    I again want to thank you, Chairman Shimkus and Ranking 
Member Green, along with members of the subcommittee for 
allowing me to testify today. I look forward to working with 
you on this commonsense solution.
    [The prepared statement of Mr. Long follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Shimkus. Thank you for joining us and it is our 
tradition not to take questions. So thanks and we will now--
Billy----
    Mr. Waxman. May I ask a question?
    Mr. Shimkus. Billy? Without objection, the ranking member 
of the full committee will be recognized for--how much time do 
you want?
    Mr. Waxman. Let us try 5 minutes and I will try not to go 
that long.
    Mr. Shimkus. OK, for 5 minutes.
    Mr. Waxman. I thank you.
    Mr. Shimkus. Without objection, so ordered.
    Mr. Waxman. I thank you for your explanation of the bill 
and willingness to answer my questions.
    Your statement says that the bill clarifies that ``the 
reporting requirements under Superfund and EPCRA will not apply 
to animal manure or its emissions.'' That is what you are 
trying to accomplish. Is this the sole intent of the bill to 
exempt manure and its emissions from the reporting requirements 
under Superfund and EPCRA?
    Mr. Long. The intent of the bill is to stop trying to use 
something that was created for Times Beach in Missouri or Love 
Canal, an actual toxic waste Superfund Cleanup Act for manure.
    Mr. Waxman. OK.
    Mr. Long. That is the intent of the bill.
    Mr. Waxman. Now, EPA is going to testify that the impact 
will go far beyond the reporting requirement and it blocks 
authority to clean up contaminated sites, prevent further 
contamination through injunction, recover compensation from 
responsible parties for cleanup activities. Now, this would 
severely undermine the principle of the polluter should pay to 
clean up their pollution. Instead, the cost of cleanup would be 
shifted to the taxpayers. Is it your intent in this legislation 
to shield polluters from liability and shift the cost of 
cleanup to taxpayers?
    Mr. Long. Absolutely not, but I want the EPA to use the 
rules that are on their books now for such ventures. I do not 
want them to get off into this la-la land of trying to use a 
Superfund that was for Times Beach and Love Canal for cow 
manure.
    Mr. Waxman. OK. And then one last question, would you 
support redrafting the language in your bill to ensure that the 
polluter-pays principle is upheld and that the cleanup costs 
are not shifted to innocent taxpayers?
    Mr. Long. I will have to get back to you on that, which I 
will do.
    Mr. Waxman. But you want to accomplish that goal?
    Mr. Long. I will get back to you on it, yes.
    Mr. Waxman. Thank you very much. I appreciate your answers.
    Mr. Shimkus. And I thank you, my colleague. And Billy, if 
you would just wait. I will recognize myself for a minute and a 
half without objection.
    Things we want to continue to highlight is the Clean Water 
Act, Section 311(f), authorizes recovery of costs incurred 
pursuant to hazardous substance mitigation. Requirements under 
Section 311(c) of the Clean Water Act. Section 3007, the Solid 
Waste Disposal Act, authorizes the EPA to obtain information or 
inspect facilities where hazardous waste had been generated or 
stored, disposed, and/or transported. And then Section 7002 of 
the Solid Waste Disposal Act authorizes citizen suits against 
any person or the Federal Government to enforce solid or 
hazardous waste laws. Section 7003 of the Solid Waste Disposal 
Act gives EPA authority to address imminent hazards.
    So the point being--and I think part of my colleagues 
coming forward is a set of regulations that you can follow, not 
piling on. And this is a legislative hearing. I appreciate my 
colleague from California raising the question and I thank my 
colleague from Missouri for joining us.
    And with that I will dismiss this and call the second 
panel.
    Mr. Green. Mr. Chairman, I just want you to know for public 
information I told our colleague that I wouldn't ask him any 
questions about the bill.
    Mr. Shimkus. And now I would like to welcome the Honorable 
Mathy Stanislaus, Assistant Administrator, Office of Solid 
Waste and Emergency Response with the United States 
Environmental Protection Agency. He has been here before. Thank 
you for coming back. Sir, your full statement is in the record 
and you are recognized for 5 minutes.

STATEMENT OF MATHY STANISLAUS, ASSISTANT ADMINISTRATOR, OFFICE 
OF SOLID WASTE AND EMERGENCY RESPONSE, ENVIRONMENTAL PROTECTION 
                             AGENCY

    Mr. Stanislaus. Mr. Chairman, Ranking Member Green, and 
members of the subcommittee, I am Mathy Stanislaus, Assistant 
Administrator for EPA's Office of Solid Waste and Emergency 
Response. Thank you for the opportunity to testify today on 
H.R. 2997, which would amend the Comprehensive Environmental 
Response, Compensation, and Liability Act, otherwise known as 
CERCLA; and on a legislative proposal regarding recycling data 
collection and a report to Congress, the Increasing 
Manufacturing Competitiveness through Improved Recycling Act of 
2012.
    Regarding H.R. 2997 and the issue of air emissions from 
animal waste, EPA in December 2008 issued a final rule referred 
to as CERCLA/EPCRA Administrative Reporting Exemption for Air 
Releases of Hazardous Substances from Animal Waste at Farms. 
The exemption became effective on January 20, 2009, and exempts 
farms from reporting under CERCLA Section 102. The final rule 
also exempts farms that release hazardous substances from 
animal waste to the air from reporting under EPCRA Section 304 
if they are stable or confine fewer than the number of animals 
to be considered under large concentrated animal feeding 
operation thresholds as defined in the Clean Water Act 
regulations.
    Let me be clear. EPA has never designated manure as a 
hazardous substance, nor has the EPA ever designated a farm a 
Superfund site and has no plans to do so. We believe EPA's 2008 
final rule has addressed concerns raised by the farm sector 
related to air release reporting under CERCLA and EPCRA without 
removing important CERCLA response authorities. While we do not 
consider manure a hazardous substance, there are substances 
associated with manure such as ammonia and hydrogen sulfide 
that are by definition hazardous substances and can threaten 
public health and the environment.
    The effect of H.R. 2997 would be to prevent the EPA from 
using CERCLA-response authorities to respond to releases to the 
environment when the manure is the source of those hazardous 
substances even if the release, for instance, such as the 
failure of a large manure waste lagoon presents a substantial 
danger to the public health and the environment.
    It would also prevent the Agency from issuing CERCLA 
abatement orders to require immediate response to damaging 
releases that could threaten drinking water sources, as well as 
residents. Therefore, we have concerns with the broad impacts 
of this bill.
    Now turning to the Increasing Manufacturing Competitiveness 
through the Improved Recycling Act and recycling data 
collection, the EPA recognizes that there are limited aggregate 
data to evaluate the success of recycling programs at the 
local, State, regional, or national level. EPA's Municipal 
Solid Waste Characterization Report was designed to provide a 
snapshot of the U.S. municipal solid waste stream and is a 
primary data source at the national level. The report includes 
data and trends since 1960 and analyzed the composition and 
amounts of municipal solid waste in the U.S. and how those 
materials are recycled, incinerated, and land-filled. It is 
used by a broad range of entities, including local, State, 
Federal governments, NGOs, the public, academia, and industry 
for a variety of progressively more complex and specific 
purposes, some of which were not originally anticipated or 
designed for in the original report.
    Recognizing that revisions of the MSW Characterization 
Report could be helpful, EPA issued a Federal Register Notice 
in September 2011 and received public comments from industry, 
local and State governments, and recycling groups. EPA plans to 
revise and expand the next Characterization Report to reflect 
an ongoing shift to sustainable materials management 
essentially to identify opportunities to maximize the economic 
and environmental benefit from reusing materials rather than 
throwing them away.
    We believe that the data collected for the MSW 
Characterization Report will inform the public and private 
sector on current recycling trends and practices and identify 
areas needed to be addressed to support increased recycling and 
support sustainable materials management efforts. The EPA is 
evaluating new methodologies and will continue to publish a 
report annually with incremental changes over time.
    Moreover, we continue to engage industry to identify ways 
to enable greater reuse and recycling of materials because of 
the economic benefits including job creation, as well as its 
environmental benefits.
    While we support the goals of the draft bill, we have 
several comments. The bill does not provide authority to 
require various sources referenced in the draft bill to provide 
specified information to achieve its goal. While the draft 
legislation intends for the information collected to be 
voluntary, it may fall short of its goal to provide the 
enhanced data needed to help more informed decision-making 
among policymakers and government officials and help the 
private sector increase the use of recyclable materials.
    EPA's planned revision and expansion of its MSW 
Characterization Report will help inform the public and private 
sector about sustainable materials management. While the draft 
bill states that the information collected by EPA is intended 
to be voluntary, this appears to be contradicted by the 
Confidential Business Information provision. Current law 
already provides those protections, and should an owner have 
such confidential proprietary information, they could seek 
those protections. Having the broad protections defined in the 
bill kind of gets in the way of the intention of the bill.
    With that, Mr. Chairman, I close my remarks.
    [The prepared statement of Mr. Stanislaus follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Shimkus. Thank you very much.
    I now recognize myself for 5 minutes for opening round of 
questions.
    I want to follow up on what Mr. Long started about really 
addressing a timeline because I think that has kind of raised a 
lot of issues, too. So on October 21 of 2008, the EPA proposed 
in the Federal Register the National Pollutant Discharge 
Elimination System Concentrated Animal Feeding Operation 
Reporting Rule. In it, EPA stated that it is ``on a separate 
track to develop a rulemaking to amend reporting requirements 
for livestock operations on air emissions under CERCLA Section 
103 and EPCRA Section 304.'' Can you tell me the status of this 
separate rulemaking for the reporting of EPCRA Section 304 and 
CERCLA Section 103?
    Mr. Stanislaus. Sure. Currently, we are in the midst of 
collecting air emissions data working with industry on that 
modeling. There is actually a separate office outside of my 
office collecting that data. So we are in the midst of 
evaluating that data. We cannot move forward on rulemaking 
until that data collection is done, so I don't have a precise 
date but I can follow up with information regarding that.
    Mr. Shimkus. And if you would, we would appreciate that. 
And what was the impetus for changing the rule issued by EPA in 
2008 on these matters? What caused the change from the position 
taken in 2008 to the position of the 21 October 2011?
    Mr. Stanislaus. Well, I mean we heard from various 
stakeholders as to the underlying basis of that determination 
of where we drew the line in terms of the size of the facility 
that would be exempted and those that will still be covered by 
the rule. So we are taking a hard look as to the data support 
for that determination.
    Mr. Shimkus. Were you petitioned?
    Mr. Stanislaus. I am not sure. Yes, I think we were in 
litigation and we remanded from that litigation to evaluate the 
rule. So we were sued. So we decided to remand to EPA to 
examine another rule.
    Mr. Shimkus. Which brings up my favorite subject, which is 
the judgment fund and compensation pursuits and who pays what, 
but that is for another hearing.
    What is the status of the proposed rule of October--well, 
we have kind of answered that. Will that proposed rule have any 
impact on the way these agriculture operations are governed 
under CERCLA or EPCRA?
    Mr. Stanislaus. Well, we are taking a look at just the 
public notification provision and looking at the air emission 
studies to inform that strictly with respect to the 
notification of emissions from these facilities and not other 
aspects of CERCLA.
    Mr. Shimkus. EPA has testified that it has never filed a 
CERCLA Section 104 action nor anything under CERCLA Section 106 
or 107 with regard to animal farming operations. How many total 
RCRA Section 703 Imminent Hazard Action cases has EPA brought 
against a farming operation?
    Mr. Stanislaus. I don't have that information. I will get 
that to you.
    Mr. Shimkus. Thank you. Is it fair to say that EPA 
considers laws other than CERCLA emergency authority as 
appropriate response to environmental threats which may occur 
at animal agriculture facilities?
    Mr. Stanislaus. Clearly, we have used other authorities in 
certain circumstances. As I testified, what this would do, it 
would prevent the use of what we call an abatement order. So 
immediately moving forward to clean up the result of a major 
spill and to prevent immediate impacts like drinking water 
impacts and impacts to local residents.
    Mr. Shimkus. If EPA changed the 2008 reporting regulation 
to include more animal facilities in CERCLA Section 103 and 
EPCRA Section 304, how many new facilities are subject to EPCRA 
reporting?
    Mr. Stanislaus. We don't have that analysis yet. We have 
not made a decision to change.
    Mr. Shimkus. Do you have a projection of a cost that it 
would incur of the additional reporting?
    Mr. Stanislaus. I mean clearly if we decide to change, we 
will conduct that analysis.
    Mr. Shimkus. And will you conduct an analysis of the 
additional cost to the Agency of receiving those reports?
    Mr. Stanislaus. Sure.
    Mr. Shimkus. How about the cost of receiving and acting on 
those reports?
    Mr. Stanislaus. Acting depending, yes, on our authorities, 
yes.
    Mr. Shimkus. OK. And I thank you for your time. You know, 
the point being we think that under current law as I stated 
earlier that duplication of this is just redundant, costly, 
inefficient, and that is why we raise this issue.
    So thank you for your time and I yield back my time and 
recognize the ranking member of the subcommittee, Mr. Green, 
for 5 minutes.
    Mr. Green. Thank you, Mr. Chairman.
    Administrator, again, thank you for being here. Supporters 
of H.R. 2997 say that the Clean Water Act, Clean Air Act, and 
the Resource Conservation Recovery Act sufficiently regulate 
and address any environmental damage that would result from 
manure contamination. Why do you feel that CERCLA is still 
necessary?
    Mr. Stanislaus. Well, CERCLA serves a distinct purpose. 
There are two aspects that we are talking about here today, and 
one is to preserve the ability to respond to a major 
catastrophic event that requires an immediate cleanup so there 
are no public health or environmental harms. You want to 
preserve that and it is critical that we preserve that 
authority.
    The other is for large facilities. Particularly local 
responders and local government have pointed out during our 
original rulemaking the real important need for that 
information so they can effectively prepare should an event 
occur.
    Mr. Green. There are concerns about small farms being 
captured by future regulations. I know there is a difference 
between my family farm and a feedlot----
    Mr. Stanislaus. Yes.
    Mr. Green [continuing]. For example, although there could 
be a family farm that includes a feedlot. So what are the 
distinctions?
    Mr. Stanislaus. Well, yes, it is defined under the Clean 
Water Act. Currently, only large CAFOs are subject to the rule 
but a significant large number of species. I can give you the 
various--afterwards.
    Mr. Green. Yes, if you----
    Mr. Stanislaus. OK.
    Mr. Green [continuing]. Just submit it to us----
    Mr. Stanislaus. Yes.
    Mr. Green. And granted, there is some concern obviously 
that if you are downwind or downstream or down a hill from a 
large feedlot that there is an issue, but again a small farm 
typically is not the issue. So I think that is----
    Mr. Stanislaus. That is correct.
    Mr. Green. Some witnesses today argue that phosphates in 
manure are not now nor have they ever been equivalent to 
harmful chemicals that CERCLA has been addressing in the last 
32 years. Do you agree with that?
    Mr. Stanislaus. I am sorry. Could you say that one more 
time?
    Mr. Green. That phosphates in manure are not now nor have 
they ever been equivalent to harmful chemicals that CERCLA has 
been addressing for the last 32 years. Do you think phosphates 
or those type of harmful chemical in certain numbers?
    Mr. Stanislaus. Yes. I mean really those chemicals and 
other chemicals listed as a hazardous substance, they are 
listed for a reason because there are underlying studies that 
show a risk and impact if it is above a certain level of 
concentration.
    Mr. Green. OK. Congressman Long's statement talked about 
measuring ammonia from open-air beef cattle feedlots is 
impractical since there is no pipe or any other way to measure 
ammonia emissions. I have in our district lots of industrial 
capacity and most of my plants now do fence-line monitoring. 
Could we see the same type of fence-line monitoring if you had 
a huge feedlot operation for testing for ammonia like we test 
for other releases?
    Mr. Stanislaus. We don't currently envision that. I mean 
that is not part of the rule that we are talking about.
    Mr. Green. But that is what happens. Like I said, I have 
refineries and chemical plants who, in the last 10 years, have 
adopted that simply because they want to know what they are 
going to blamed for----
    Mr. Stanislaus. Yes.
    Mr. Green [continuing]. Instead of their neighbors since 
they are literally fence line to fence line. But that is a way 
that you can measure ammonia from a facility?
    Mr. Stanislaus. Well, yes. But again we are not proposing 
that at the moment.
    Mr. Green. On the recycling bill, I share your concerns 
about the surveys being voluntary. Can you elaborate on why 
these concerns, if we make them mandatory, would these specific 
authorities that would need to be included in the legislation 
for you to carry out your study?
    Mr. Stanislaus. Well, very simply, I think the good intent 
of a bill is to provide more granular data from a variety of 
sources. So some of those sources are State and local 
governments, some of them are industry, and some of the data is 
industry-to-industry. So to really provide the kind of 
information, the granular, that industry wants and other 
sectors want, we would need to have a comprehensive set of 
data. So we have data gaps that really cut against the intended 
nature of really advancing the environmental economic 
protections of that. So without that, I don't see how the goals 
would be met.
    Mr. Green. Well, and you could end up with just self-
selection and really holes in your data that you couldn't 
really address effectively.
    Mr. Stanislaus. That is right. Some industries, some 
companies voluntarily put that information up and others would 
not, but we would not be able to make an industry-specific 
judgment that is statistically significant in some cases if we 
have data gaps.
    Mr. Green. OK. The 2012 Interior/Environment Appropriations 
Act Congress directed EPA to report to Congress on development 
of a process to collect additional data on recovery rates 
achieved by U.S. recycling programs. That report was due in 
March of this year. Do you know the status of that report?
    Mr. Stanislaus. Yes, that was submitted on that day. That 
was submitted, yes.
    Mr. Green. OK, thank you.
    Mr. Chairman, I don't have any other questions.
    Mr. Shimkus. Gentleman's time is expired.
    The chair recognizes the vice chairman of the committee, 
Mr. Murphy, for 5 minutes.
    Mr. Murphy. Thank you. Welcome here.
    I understand EPA identified better collection of data on 
recycling as an issue in your fiscal year 2012 justification on 
appropriations. In addition, I understand that in the fiscal 
year 2012 appropriations bill Congress directed the EPA to 
develop a plan to collect better information and report on that 
to Congress. Finally, I understand that EPA has solicited 
public comment on what information you should include in your 
Municipal Solid Waste Characterization Report. So first of all, 
if you and Congress agree this is important, when can we expect 
the report to Congress on improving recycling data? When can we 
expect that?
    Mr. Stanislaus. Yes, so the report has already been 
submitted per the congressional direction. We are advancing 
more granular data versus a characterization study. We did a 
Federal Register Notice. We solicited comments from a variety 
of stakeholders and gradually expanding the data collection 
under that report.
    Mr. Shimkus. So if the gentleman would yield.
    You have given an initial response but it is going to be a 
fuller analysis. Is that what you are testifying?
    Mr. Stanislaus. Well, we----
    Mr. Shimkus. You are talking about granular.
    Mr. Stanislaus. Yes, so I just want to make sure I 
understand the question.
    Mr. Murphy. I would like to know what granular means. Is it 
the full report?
    Mr. Stanislaus. So we submitted a report per congressional 
direction this year. You know, as identified in that report, we 
identified the need to have better data, particularly data that 
goes beyond historic recycling and really looks at what we call 
material management opportunities and where can we look at 
opportunities to reuse and reengineer. So we solicited comments 
with a Federal Register Notice. We are in the midst of 
evaluating that and our intention is, with respect to the data 
collection and the report that we issue publicly biannually, to 
have an expanded set of data.
    Mr. Murphy. So that full report is done or not done?
    Mr. Stanislaus. Yes. We are talking two reports. The report 
to Congress is done.
    Mr. Murphy. OK.
    Mr. Stanislaus. The MSW Characterization Report, we issue 
that----
    Mr. Murphy. And you responded to all the public comments, 
too?
    Mr. Stanislaus. State that again.
    Mr. Murphy. Have you responded to the public comment on the 
matter?
    Mr. Stanislaus. We are in the midst of evaluating that----
    Mr. Murphy. OK.
    Mr. Stanislaus [continuing]. Before that, yes.
    Mr. Murphy. Can you detail the steps that EPA is taking to 
improve your existing Municipal Solid Waste Characterization 
Report? Can you detail for us, can you give information on the 
steps that EPA has taken to improve the existing Municipal 
Solid Waste Characterization Report?
    Mr. Stanislaus. So I mean it is contained in the report. I 
can follow up on that.
    Mr. Murphy. OK. Does the administration consider private 
sector recycling part of the green economy on green jobs?
    Mr. Stanislaus. Oh, absolutely.
    Mr. Murphy. It does? OK. And why hasn't EPA, through your 
next report--though your next report is due--why isn't EPA 
improving this data? I am still confused in terms of how you 
are working this.
    Mr. Stanislaus. Well, that is exactly the point. Our effort 
currently is to actually improve the data with the real focus 
on identifying reuse opportunities and reengineering 
opportunities because, you know, we have heard from lots of 
industries who have told us that that information will be 
critical for them to make informed judgments.
    Mr. Murphy. OK. Let me shift to another thing about 
electronics recycling initiatives if I could. Would you support 
electronic recycling initiatives that violate our trade 
obligation under the WTO?
    Mr. Stanislaus. I guess I am not informed enough with 
respect to the international----
    Mr. Murphy. You can get back to us on that?
    Mr. Stanislaus. I can get back to you on that.
    Mr. Murphy. Thank you. Does EPA have existing authority to 
conduct the study called for in the Discussion Draft on these 
things?
    Mr. Stanislaus. The study called for in the Discussion 
Draft? I would say we have general authority but I guess not as 
specific as set forth in the bill.
    Mr. Murphy. How much funding will the expanded study--do 
you have any idea how much funding is going to be necessary to 
do that?
    Mr. Stanislaus. Well, we took a look at the estimate, the 
amount set forth in the bill and we believe that is inadequate. 
You know, our estimate is roughly about $800,000 a year to do 
that, as well as within the timeline is too restricted to 
complete the job. We think 2 years will not be enough to really 
do the kind of rigorous data collection that is set forth in 
the bill.
    Mr. Murphy. Thank you, Mr. Chair, and I will submit other 
questions for the record. Thank you.
    Mr. Shimkus. I thank my colleague.
    Now the chair recognizes the chairman emeritus, Mr. 
Dingell, for 5 minutes.
    Mr. Dingell. Mr. Chairman, I thank you for your courtesy.
    Yes or no answers if you please.
    If manure is consolidated into a big lagoon, does EPA 
consider that circumstance a naturally occurring substance in 
its unaltered state from a location where it is naturally 
found? Yes or no?
    Mr. Stanislaus. Well, I would have to ask within the answer 
to this be the CERCLA authority. CERCLA authority would not 
attach to that circumstance.
    Mr. Dingell. Thank you. Has EPA ever responded to the 
release of a naturally occurring substance? Yes or no?
    Mr. Stanislaus. No.
    Mr. Dingell. Do you have any plans to do so?
    Mr. Stanislaus. No.
    Mr. Dingell. Is EPA aware that substances such as 
phosphorous are added to the feed at animal feeding operations? 
Yes or no?
    Mr. Stanislaus. I guess I am not specifically aware but I 
am sure my staff is.
    Mr. Dingell. OK. Were the Waco and Tulsa examples, 
situations where local governments were trying to recover 
response costs for protection of drinking water supplies from 
contamination caused by dairy or other animal feeding 
operations? Yes or no?
    Mr. Stanislaus. I am not specifically aware of that 
litigation. We were not involved in that. That is my 
understanding----
    Mr. Dingell. But it was an action by the local 
governments----
    Mr. Stanislaus. That is right.
    Mr. Dingell [continuing]. To protect their water supplies 
and the public health, is that not so?
    Mr. Stanislaus. That is what has been represented. We were 
not involved in that.
    Mr. Dingell. And it was causing substantial amounts of 
algal bloom, phosphorous, and other pollution of the waters of 
Lake Waco and the people in the area who used that for their 
water supply, is that right?
    Mr. Stanislaus. Again, I am not intimately familiar with 
the facts.
    Mr. Dingell. All right. Is EPA aware of any small farm 
operations as opposed to large-scale industrial AFOs that have 
triggered the reporting requirements for ammonia and hydrogen 
sulfide? Yes or no?
    Mr. Stanislaus. Well, the reporting requirements currently 
strictly apply to large CAFOs.
    Mr. Dingell. All right. EPA finalized an exemption in 
December 2008 which exempted hazardous substance releases from 
animal waste from the reporting requirement. Therefore, no data 
has been reported since that time. Is that true?
    Mr. Stanislaus. Yes, data under CERCLA 103, that is 
correct.
    Mr. Dingell. The air emission monitoring study was supposed 
to take 2 years but the draft development of emissions 
estimating methodologies for lagoons and basins at swine and 
dairy animal feeding operations reported that additional 
analysis is needed. Is there any data that shows that the broad 
exemption in the bill before is justified? Yes or no?
    Mr. Stanislaus. We are in the process of evaluating that 
data. We have not made a conclusion.
    Mr. Dingell. But you do not have the data because the study 
is not available to you, is that right?
    Mr. Stanislaus. Well, there is a separate study that a 
separate office of EPA is conducting with data from various 
industrial sources.
    Mr. Dingell. All right. Has any public agency determined 
that a public health hazard existed based on the release of 
hydrogen sulfide at a dairy farm or other animal feeding 
operation? Yes or no?
    Mr. Stanislaus. I don't know whether a public health agency 
has made that----
    Mr. Dingell. You know of none?
    Mr. Stanislaus. I know of none, no.
    Mr. Dingell. Now, Mr. Chairman, we are in an 
extraordinarily dangerous situation. On one hand, we have a 
reporting exemption that has prohibited collection of any data 
for over 3 years. On the other hand, we know that the Agency 
for Toxic Substances and Disease Registry has previously 
testified before this panel that there was a public health 
hazard as a result of high levels of hydrogen sulfide at a 
dairy farm in Minnesota. I do not believe that we need a broad 
exemption from reporting where we know that there is at least 
one significant problem.
    Now, if you have a big animal feed operation, i.e., one of 
these gigantic hog farms or a tremendous, large animal 
operation like you would find at Monfort out around Longworth, 
Colorado, you can smell that damn thing 40 miles away. 
Approximately what size city would have that much manure 
flowing through its waste treatment system?
    Mr. Stanislaus. What size city?
    Mr. Dingell. Yes.
    Mr. Stanislaus. I am not sure that----
    Mr. Dingell. The huge hog farm there got thousands of hogs, 
you got a huge beef lot, how many animals would be at those and 
what would be the amount of the manure that would be collected 
there? And how would that equate to the size of a city, say 
Minneapolis or Cedar Rapids or Muskegon or Detroit?
    Mr. Stanislaus. I can get back to you with respect to data.
    Mr. Dingell. I would like to have that. Please give us a 
table if you could----
    Mr. Shimkus. Gentleman's time----
    Mr. Dingell [continuing]. Of just how much manure is out 
there and what you do to a city if it had that kind of 
operation, risking both air and water pollution?
    Mr. Chairman, I thank you for your courtesy.
    Mr. Shimkus. The gentleman's time has expired.
    The chair now recognizes Mr. Harper for 5 minutes.
    Mr. Harper. Thank you, Mr. Chairman.
    EPA received $9.5 million for waste minimization and 
recycling in 2012 and the Obama administration requested EPA 
about this same amount for fiscal year 2013. At the same time, 
you said that you want to focus on sustainable materials 
management.
    Mr. Stanislaus. Um-hum.
    Mr. Harper. So my first question is don't you agree that if 
EPA wants to be a leader on this issue, you need good 
information about how materials are being recycled currently?
    Mr. Stanislaus. Absolutely.
    Mr. Harper. And are you telling me that you can't spend 
$400,000 a year for 3 years from within your current 
appropriations level to help get better information to solve 
problems you say you want to solve?
    Mr. Stanislaus. Well, as I testified earlier, we in fact 
have collected information and plan to include that as part of 
our characterization report.
    Mr. Harper. If you break down that figure, it comes to 
about $182 per employee----
    Mr. Stanislaus. Um-hum.
    Mr. Harper [continuing]. So how do those folks even know 
what they should be focusing on if they don't understand how 
that existing recycling system works?
    Mr. Stanislaus. Well, we have a significant amount of data 
that we report on regularly that is used by industry, used by 
local government to identify economic and environmental 
opportunity. And we also recognize that additional and more 
precise data would be beneficial to advance the recycling 
market, and that is our intention to do so.
    Mr. Harper. All right. Let me ask this. Does the 
administration consider private sector recycling part of the 
green economy or green jobs it is trying to promote?
    Mr. Stanislaus. Well, I mean clearly recycling by private 
industry is critically important. We work with industry all the 
time. We recognize the economic environmental value of that. In 
fact, we have ongoing conversations with industry to advance 
that.
    Mr. Harper. My next question would be I understand that the 
EPA does not have an approved information collection request 
under the Paperwork Reduction Act for recycling data. That 
means that your current report on solid waste and recycling can 
only rely on published information collected from I believe no 
more than nine people. Is that correct?
    Mr. Stanislaus. I am not sure that is correct but I will 
get back to you on that----
    Mr. Harper. OK.
    Mr. Stanislaus [continuing]. In terms of the sources of 
data that we use for the characterization study.
    Mr. Harper. Is the information asked of in the Discussion 
Draft already requested and published by EPA?
    Mr. Stanislaus. Well, if you are asking how the bill 
compares with the data we current collect, you know, we 
acknowledge that, one, there is aggregate data that we are 
currently going by and clearly the ability to collect more data 
is important. We also identified earlier in my testimony that 
if we focus on just voluntary data, it is still going to leave 
a gap in terms of the comprehensiveness of the data.
    Mr. Harper. I just want to be clear. Are you saying that 
you only surveyed nine people----
    Mr. Stanislaus. No, that is not----
    Mr. Harper [continuing]. Or you didn't or you don't know in 
this recycling----
    Mr. Stanislaus. Well, I believe the nine people relates to 
whether you do or do not need information collection provision. 
This is developed over many years so our sources include local 
and State government, as well industry. In terms of our total 
sources of data, I will get back to you on that.
    Mr. Harper. Well, you know, I am just curious if there are 
just a few surveys that were done and then there was an 
extrapolation done and based upon that information or how that 
came about.
    Mr. Stanislaus. It is a yearly collection of data from 
multiple sources.
    Mr. Harper. OK. You say that you use the materials flow 
methodology to estimate the amount of recycling nationwide 
using estimates of goods produced and materials discarded or 
recycled and trying to do a mass balance. How can that method 
tell you anything about recycling systems?
    Mr. Stanislaus. Well, based on data we collect, we analyze 
the systems and some of those systems are dependent on various 
kinds of industries, so based on the data we extrapolate and do 
systems-based analysis.
    Mr. Harper. Is it safe to say or fair to say that we really 
don't know where recycled material is coming from?
    Mr. Stanislaus. No, I wouldn't say that. I think we have a 
fairly good feel for recycling and various industries and 
opportunities for recycling in various industries. We have 
ongoing conversations with numerous industries that want to 
promote that. Clearly, more data will help advance the 
opportunities in recycling.
    Mr. Harper. So are you able to give us a breakdown of where 
the recycled material comes from across----
    Mr. Stanislaus. Sure. Sure. In fact, we submitted a report 
to Congress and we could provide you that characterization 
study any supplements to that.
    Mr. Harper. Thank you, Mr. Chairman. I will yield back.
    Mr. Shimkus. The gentleman yields back.
    The chair now recognizes the ranking member of the full 
committee, Mr. Waxman, for 5 minutes.
    Mr. Waxman. Thank you, Mr. Chairman.
    Proponents of this legislation have said that Superfund was 
never meant to address manure and that it is not needed to 
address contamination from manure. This is simply not true. The 
legislative history of Superfund shows that manure was 
considered and Superfund has been used to address contamination 
from manure and could be an essential tool in addressing 
potential future contamination. On May 19, 2000, EPA issued a 
Notice of Violation to the Nation's second-largest pork 
producer, Premium Standard Farms, for failing to comply with 
release reporting obligations in Section 103 of Superfund and 
Section 304 of EPCRA with respect to releases of ammonia at 12 
lagoons on facilities owned by Premium Standard Farms. Is that 
correct, Mr. Stanislaus?
    Mr. Stanislaus. I can get back to you. I don't have the 
specific information in front of me.
    Mr. Waxman. OK. Those violations were resolved in a 
settlement on November 19, 2001, and a payment of a civil 
penalty. In September 2006, EPA also filed a civil complaint 
against Seaboard Foods, concentrated animal feeding operation 
in Oklahoma for releases of ammonia. Proponents of this bill 
discount the importance of these emissions. Can you explain how 
a community would experience an ammonia release that drifts 
through its neighborhood?
    Mr. Stanislaus. Well, I could generally describe it and get 
back--I mean clearly ammonia is listed as a hazardous substance 
because of underlying health studies that show a detriment-to-
health consequence from inhaling ammonia.
    Mr. Waxman. Well, ammonia can cause acute and long-term 
health effects. What I went through were examples of Federal 
responses to contamination from manure. States and local 
governments have also brought suit under Superfund based on 
contamination caused by manure to recover taxpayer funds spent 
on cleanups. The city of Tulsa, Oklahoma, brought suit for 
contamination under Superfund, as did the city of Waco, Texas. 
Both of those suits settled. The State of Oklahoma acting 
through the Attorney General also brought suit under Superfund 
to recover cleanup costs against poultry farms in Arkansas. 
That case is still pending.
    If H.R. 2997 becomes law, will States and towns be able to 
use Superfund in the future to recover public funds spent 
cleaning up contamination from manure?
    Mr. Stanislaus. As I testified, this would prevent the use 
of all of CERCLA authorities, including response and abatement 
orders, as well as other provisions of CERCLA.
    Mr. Waxman. You testified, Mr. Stanislaus, that a large 
manure waste lagoon could fail and present a substantial danger 
to public health and the environment. In such a case, if this 
bill were enacted, what impact would H.R. 2997 have on EPA's 
ability to require a response to such a spill?
    Mr. Stanislaus. Well, one, we would not be able to issue an 
abatement order against the responsible party to immediately 
ameliorate that public health risk. Separately, if a 
responsible party was not willing to do so, it would prevent us 
from using our resources to prevent that immediate risk to 
public health.
    Mr. Waxman. As I understood the testimony from 
Representative Long, he said he wanted to preserve existing 
authorities and requirements just argue we don't need new ones. 
These authorities and requirements under Superfund that we have 
discussed are existing authorities, aren't they?
    Mr. Stanislaus. That is correct.
    Mr. Waxman. And they have been since 1980, is that right?
    Mr. Stanislaus. That is right.
    Mr. Waxman. So turning quickly to the recycling bill, I 
expect that we will hear concerns from later panels and 
information voluntarily given to EPA about municipal waste 
streams will not be protected appropriately from disclosure. If 
a company or trade association submitted confidential business 
information to EPA in the context of the MSW Characterization 
Report or in any other context, what protections would the 
Agency provide for that CBI?
    Mr. Stanislaus. We have an existing process where if a 
company claims confidential business information, we evaluate 
whether that is or not and engage the company. So there is an 
existing rigorous process to protect proprietary information.
    Mr. Waxman. OK. Thank you very much, Mr. Chairman. I will 
yield back my time.
    Mr. Shimkus. The gentleman yields back his time.
    The chair recognizes the gentleman from Colorado, Mr. 
Gardner, for 5 minutes.
    Mr. Gardner. Thank you, Mr. Chairman.
    And thank you, Mr. Stanislaus, for being here today.
    In your opening statement you stated that, ``as discussed 
above, we believe EPA's 2008 final rule''--it goes on to talk 
about CERCLA, EPCRA--``has addressed concerns raised by the 
farm sector.'' Is the farm sector supportive of this provision?
    Mr. Stanislaus. The bill?
    Mr. Gardner. You are talking about some of the things I 
think in your opening statement--I wrote it down--where you 
talked about the EPA acting in response to concerns raised by 
the farm sector.
    Mr. Stanislaus. You are talking about the 2008 rule?
    Mr. Gardner. Right.
    Mr. Stanislaus. Yes, I think it reflects their comments in 
terms of particularly ensuring the small farmer's burdens are 
addressed.
    Mr. Gardner. OK. So the farm sector supports the 2008 rule?
    Mr. Stanislaus. Well, we have heard from lots of farms and 
I think particularly it recognizes the small farms' issues. 
So----
    Mr. Gardner. So the farm sector supports the rule, then?
    Mr. Stanislaus. Well, again, we have had multiple 
stakeholders and I am sure that is many segments of--
particularly the small farmers support that provision.
    Mr. Gardner. What is a small farm to you?
    Mr. Stanislaus. Well, small farms are those that are 
defined in the Clean Water Act. These are not concentrated 
animal feeding operations. They are below that size. And I can 
give you the specific details based on the----
    Mr. Gardner. So people who don't have feedlots then 
basically?
    Mr. Stanislaus. I am sorry. Say it again.
    Mr. Gardner. So they don't have feedlots? That is what you 
are describing as a small farm is somebody without a feedlot?
    Mr. Stanislaus. Well, someone without basically an 
industrial level animal feeding operation.
    Mr. Gardner. What is an industrial level----
    Mr. Stanislaus. Well, it is defined based on the various 
kinds of animals used and we could give you a list of what 
those definitions are.
    Mr. Gardner. Have you ever been to a concentrated animal 
feeding operation?
    Mr. Stanislaus. I have been adjacent to them, yes.
    Mr. Gardner. But have you been onsite? Have you been on 
one?
    Mr. Stanislaus. Not in it, but adjacent to it, yes.
    Mr. Gardner. Adjacent? What do you mean? You have driven by 
one?
    Mr. Stanislaus. No, I have walked in the periphery of that, 
the fence line of that.
    Mr. Gardner. So you have seen a feedlot? You have gone 
through it?
    Mr. Stanislaus. I have.
    Mr. Gardner. OK, very good.
    A couple of questions for you. In considering and requiring 
all CAFOs to report emissions of ammonia and hydrogen sulfide 
under CERCLA, you are considering that right now?
    Mr. Stanislaus. Well, we are first looking at data as well 
as estimating methodologies with industry and other 
stakeholders to make sure that we are able to estimate their 
emissions first. Based on that, that is going to inform our 
rulemaking. So we have not come to any conclusion on that.
    Mr. Gardner. But you are considering it then?
    Mr. Stanislaus. Well, yes. We issued a Federal Register 
Notice regarding that.
    Mr. Gardner. In your October 2011 Proposed Clean Water Act 
Section 308 rule that you were talking about using this 
reporting rule to gain information for livestock operations, it 
implies that you are considering wrapping all livestock 
operations under these reporting rules. And I certainly hope 
that that is not the path that you are planning on going down?
    Mr. Stanislaus. Yes, I am not familiar with that specific 
provision.
    Mr. Gardner. Do open-air cattle feedlots present an 
emergency situation?
    Mr. Stanislaus. Not inherently. Again, as I testified 
earlier with respect to this bill, what we want to preserve is 
those limited circumstances where there could be a catastrophic 
kind of failure that results in potential public health and 
environmental risk.
    Mr. Gardner. And so what is it that responders are going to 
respond to at a feedlot?
    Mr. Stanislaus. So just to be clear, during the 2008 rule 
development, what I was articulating earlier is that from a 
need-to-know information, particularly of large CAFOs, 
emergency responders, local government officials noted that 
they need to know, particularly these large facilities so they 
can have the infrastructure in place to respond should there be 
a release of a significant quantity.
    Mr. Gardner. So I live in a small town of about 3,000 
people in the eastern plains of Colorado. It is no longer the 
Monfort feedlot but it is certainly still in existence outside 
of my town. It is a very large operation, employs a great 
number of people. And so my volunteer fire department, the 
first responders there, would they be equipped with a HAZMAT 
operation to deal with this proposed emergency situation? Is 
that what you are trying to get at?
    Mr. Stanislaus. Well, generally, emergency responders need 
to know the kind of equipment based on what is within their 
jurisdiction. So it is going to be tailored around the 
potential releases and making sure the proper equipment.
    Mr. Gardner. So what would that proper equipment be for my 
local police department or fire department for the feed lot 
down the road?
    Mr. Stanislaus. Well, it is various kinds of cleanup 
equipment. Cleanup equipment varies depending on the kind of 
releases. You know, so I can get back to you with the specific 
kinds----
    Mr. Gardner. Well, what kind of a release do you anticipate 
happening?
    Mr. Stanislaus. No, again, with respect to the particular 
issue we are talking about, we want to preserve the ability--we 
have a catastrophic failure that impacts, for example, drinking 
water sources, impacts residents, then making sure that we can 
immediately clean that up----
    Mr. Gardner. This is like a cloud of ammonia you anticipate 
moving toward town?
    Mr. Stanislaus. No, what I was specifically referring to is 
a major CAFO having a breach and significant volumes that 
impacts drinking water source and being able to clean that up 
so it doesn't compromise public health.
    Mr. Gardner. I see my time has expired. One last question, 
Mr. Chairman, if you will indulge.
    Are you using aerial surveillance right now to monitor 
CERCLA compliance with CAFOs?
    Mr. Stanislaus. Well, yes, I think that the Agency has made 
a statement regarding its aerial surveillance and we could 
provide that to you.
    Mr. Gardner. So you are using----
    Mr. Shimkus. Thank you----
    Mr. Stanislaus. Well, again, the Agency has made a 
statement and it doesn't come under my jurisdiction.
    Mr. Shimkus. Thank you. The gentleman's time has expired.
    We now recognize the gentleman from North Carolina for 5 
minutes, Mr. Butterfield.
    Mr. Butterfield. Thank you, Mr. Chairman. And thank you, 
Administrator, for your testimony today.
    Continuing to improve our country's recycling programs is 
an important issue for many of our colleagues, and certainly it 
is important for me. It is important for the district that I 
represent in eastern North Carolina.
    EPA currently reports the amount of materials recycled each 
year by collecting information made publicly available by 
recycling stakeholders and municipalities. The EPA has 
expressed interest in collecting more extensive data about 
recycling and has been soliciting public comments. And so I 
just wanted to say for the record that I look forward to 
working with the EPA to identify the most effective way to 
generate accurate and useful information to improve our 
recycling programs.
    I am also pleased the subcommittee is discussing 
agriculture, very important to my district, agriculture, which 
accounts for nearly $70 billion annually to North Carolina's 
economy. I appreciate your testimony on this and other subjects 
as well.
    Let me just ask you, Administrator, let me start with this 
very quickly. Does EPA intend to take into consideration views 
of the agriculture community and the other stakeholders when 
revising the rule?
    Mr. Stanislaus. We are already in conversations with them, 
yes. So the answer is yes.
    Mr. Butterfield. All right. Can the EPA issue orders to 
require response for damaging releases of hazardous substances 
from manure using other statutes such as the Clean Air Act or 
the Clean Water Act, the Resource Conservation and Recovery Act 
or FIFRA? Are there other statutes that you can depend on?
    Mr. Stanislaus. Not to conduct an immediate cleanup.
    Mr. Butterfield. You mentioned that manure is not a 
hazardous substance. You agree on that, is that correct?
    Mr. Stanislaus. Say again.
    Mr. Butterfield. Manure is not a hazardous----
    Mr. Stanislaus. That is right.
    Mr. Butterfield [continuing]. Substance according to your 
definition.
    Mr. Stanislaus. That is right.
    Mr. Butterfield. Is manure the only nonhazardous substance 
under the jurisdiction of the Superfund?
    Mr. Stanislaus. Well, again, manure is not listed as a 
hazardous substance so I guess I am not clear about your 
question.
    Mr. Butterfield. Well, let me read it again. You mentioned 
that manure is not a hazardous substance.
    Mr. Stanislaus. That is right.
    Mr. Butterfield. Is manure the only nonhazardous substance 
under the jurisdiction of CERCLA and EPCRA or do you have other 
examples?
    Mr. Stanislaus. Well, again, as CERCLA is constructed, 
there is a list of hazardous substances so it could be a 
contaminant that is not a hazardous substance that we could use 
our authorities to do cleanup.
    Mr. Butterfield. Can EPA designate a farm a Superfund site 
in the future prospectively?
    Mr. Stanislaus. As I have testified, that is not something 
we have done or plan to do again because manure is not a listed 
hazardous substance.
    Mr. Butterfield. That was in response to Mr. Dingell's 
question earlier I believe?
    Mr. Stanislaus. Yes.
    Mr. Butterfield. Are there any barriers in place that 
prevent the EPA from conducting more voluntary surveys about 
recycling? Are there any barriers?
    Mr. Stanislaus. I don't believe there are explicit barriers 
but there are procedures that we need to go through to collect 
information.
    Mr. Butterfield. Have you evaluated the usefulness of 
voluntary surveys?
    Mr. Stanislaus. Well, yes. In fact, we in fact do that 
currently as part of our efforts.
    Mr. Butterfield. All right. I think I will stop right 
there. I yield back. Thank you.
    Mr. Stanislaus. Thank you.
    Mr. Shimkus. The gentleman yields back his time.
    The chair now recognizes the gentleman from Louisiana, Mr. 
Cassidy, for 5 minutes.
    Mr. Cassidy. Hey, Mr. Stanislaus. How are you?
    Mr. Stanislaus. Good, how you are doing?
    Mr. Cassidy. I am good, thank you.
    I am interested in the recycling almost as a discussion of 
the topic because I am trying to understand it. It almost seems 
like it is such a moving target that you may take a snapshot of 
what recycling activity takes place, but if somebody suddenly 
puts a premium on aluminum cans, it is going to dramatically 
increase aluminum can recycling. And if that occurs just after 
your snapshot, then your data are dated. And I am saying that 
not to accuse or anything, just to kind of ponder.
    Similarly, I think I see in the bill that the use of 
recycled material to develop energy if you will, waste burning, 
is not included in the bill but if you have a cost differential 
that would say burn a plastic bottle for its potential energy 
as opposed to recycle, you are going to shunt one way versus 
the other. Does that make sense?
    Mr. Stanislaus. Well, clearly those decisions are made on a 
regular basis today.
    Mr. Cassidy. Correct.
    Mr. Stanislaus. Yes, and it is based on the price value of 
reusing one direction or the other and commodity prices vary. 
So there is a regular shift based on that.
    Mr. Cassidy. I don't want to seem nihilistic, but it almost 
seems more important for you to look at the variables that 
would influence recycling than to do a particular measure of 
how much we recycle.
    Mr. Stanislaus. Well, we do both, so really the intention 
of looking at materials more holistically as we are doing right 
now, it is to not only look at the historic recycle waste 
stream but really look at various industrial sectors and how to 
really maximize sometimes closed-loop, sometimes reengineering 
from third parties, so looking at recycling in the economy 
overall.
    Mr. Cassidy. So I accept that. And so again it almost seems 
like the measuring at a point in time, what is happening, is 
far less important than helping a business optimize their use 
of recycled material to decrease marginal cost. Does that make 
sense?
    Mr. Stanislaus. Well, I do think that partially makes sense 
but in our conversations--and I am sure you are going to hear 
from panelists later on--I think it is fair to say that 
numerous industrial sectors, as well as State and local 
governments in terms of really identifying the opportunities 
and how to put in place infrastructure and make decisions, they 
would welcome EPA's data to help inform those decisions.
    Mr. Cassidy. But you seem to be agreeing with me that if 
you wanted to have more use of something as opposed to going to 
a landfill, it doesn't really matter as much to measure the 
amount going into the landfill as much as to measure the 
potential benefit from either burning it for energy combustion 
or for recycling at a certain given price.
    Mr. Stanislaus. Well, I think we want to take a 
comprehensive look at the materials field. And so looking at 
what goes in a landfill is an indicator of success or failure 
and so if you track it over time, you could see how effective 
your upstream actions have been. And have you in fact been 
successful in putting in place the kinds of programs so that 
industry can take advantage? So there is a net reduction to 
landfill. So I would argue that you need to have a full 
lifecycle of information and data.
    Mr. Cassidy. I could almost see, though, that the price 
they are paying for aluminum cans would give you the same 
information. If there is a lot of aluminum cans, they are not 
paying very much, but if there are few, they are going to pay 
more for that which they get.
    That said, in your testimony you said that you would like 
to have the ability to require entities to produce certain 
information to make your analysis more robust I assume. I am 
just asking who would be required to produce this and what 
amount of information would they be required to produce and how 
onerous would be that requirement?
    Mr. Stanislaus. Yes, you know, what I testified is where 
the proposed bill relies exclusively on voluntary information, 
I think exclusively relying on voluntary information inherently 
means that you will have some data gaps. So I would say it 
constrains the ability to meet the overall----
    Mr. Cassidy. I am almost out of time----
    Mr. Stanislaus. OK.
    Mr. Cassidy [continuing]. But, again, I am concerned that 
we are going to put some small municipality under a great 
burden of reporting requirements. So who would be required and 
how much, how onerous would be the requirements?
    Mr. Stanislaus. Well, I would say that where the greatest 
data sources are and where I think both the various aspects--
the recycling industry and prospective recycling industry--
would benefit is again a granular level of data from industry-
to-industry recycling opportunities. So I will leave it all 
to----
    Mr. Cassidy. So not just municipal dumps but also a 
manufacturing outfit that leaves scrap metal on the floor?
    Mr. Stanislaus. Well, that is where I see the greatest 
opportunity is the industry-to-industry opportunity.
    Mr. Cassidy. OK, but still how onerous would it be? Do you 
see what I am saying? That is the key thing.
    Mr. Stanislaus. Sure, that is a fair point.
    Mr. Cassidy. Yes.
    Mr. Shimkus. The gentleman's time is expired. I will tell 
you that as the chair of the Recycling Caucus, it is not 
industry who is--you don't have to worry about recycling. They 
are going after everything and they leave nothing on the floor. 
And the importance of this debate is really the municipal side, 
what is being left on the table through the municipal waste 
stream.
    So Mr. Stanislaus, thank you for your time. As per 
tradition, 10 days you may get additional questions submitted 
for the record. If you would reply based upon Members' written 
questions during that period of time, we would appreciate it.
    Also, I would like to get a list of programs that receive 
voluntarily submitted information that the EPA has. You may----
    Mr. Stanislaus. On the recycling side?
    Mr. Shimkus. Overall.
    Mr. Stanislaus. I am sorry. Say that one more time. I am 
sorry.
    Mr. Shimkus. You stated in the question that there are 
programs in which you receive voluntary information so I would 
like to know what type of programs are getting voluntary 
information and how you are gathering that data and what it is 
used for.
    Mr. Stanislaus. OK.
    Mr. Shimkus. And with that, seeing no other questions, you 
are allowed to leave. And we will empanel the third panel. 
Thank you for your time.
    Mr. Stanislaus. Thank you.
    Mr. Shimkus. We want to welcome everybody. It almost felt a 
little schizophrenic bouncing back and forth between two bills.
    This third panel is based upon the recycling portion of the 
hearing, so we are happy to get back singularly focused. And 
with that, your full statements are submitted for the record. 
You will get 5 minutes.
    I am going to welcome you all first and then we will go to 
you individually for your opening statements.
    With us on the third panel is Mr. Charles D. Johnson, Vice 
President, Environment, Health, and Safety of the Aluminum 
Association, Inc; also Ms. Lynn Bragg, President of the Glass 
Packaging Institute; Mr. Jonathan Gold, Senior Vice President, 
Recovery and Recycling Division of the Newark Group; and then 
Mr. John Skinner, Executive Director of the Solid Waste 
Association of North America. Again, we welcome you all. And we 
will start with Mr. Johnson for a 5-minute opening statement.

STATEMENTS OF CHARLES D. JOHNSON, VICE PRESIDENT, ENVIRONMENT, 
  HEALTH, AND SAFETY, THE ALUMINUM ASSOCIATION, INC.; LYNN M. 
  BRAGG, PRESIDENT, GLASS PACKAGING INSTITUTE; JONATHAN GOLD, 
  SENIOR VICE PRESIDENT, RECOVERY AND RECYCLING DIVISION, THE 
 NEWARK GROUP, ON BEHALF OF THE PAPER RECYCLING COALITION; AND 
    JOHN H. SKINNER, EXECUTIVE DIRECTOR AND CHIEF EXECUTIVE 
       OFFICER, SOLID WASTE ASSOCIATION OF NORTH AMERICA

                STATEMENT OF CHARLES D. JOHNSON

    Mr. Johnson. Chairman Shimkus, Ranking Member Green, and 
members of the committee, thank you for this opportunity to 
testify. My name is Charles Johnson; I am the vice president of 
Environment, Health, and Safety with the Aluminum Association. 
We are the trade association representing U.S. aluminum 
producers, recyclers, and industry suppliers. On behalf of our 
industry, I would like to commend Congressman Sullivan for 
offering this draft bill and his continued efforts to increase 
recycling as a critical piece of U.S. energy and sustainability 
efforts.
    The U.S. aluminum industry believes this legislation is 
critical because recycling is a source of sustainable, private 
sector-driven green jobs; recycling is a vital part of energy 
efficiency and should be part our Nation's energy solutions; 
and the collection of better waste and recycling data, 
facilitated by this legislation will allow consumers, 
policymakers, and industry to more rapidly achieve higher 
recycling rates.
    In 2010, Americans recycled $1.6 billion in aluminum cans. 
If the industry's beverage can recycling goal of 75 percent was 
achieved, the payback to American consumers would be $2.1 
billion. Aluminum's infinitely recyclable nature means scrap 
metal has high value, and the processing and recycling of the 
metal yields a significant impact on the economy and in job 
creation.
    Market trends are leading all recycling industries to take 
back more recycled materials but this material is not always 
available. At the same time, the American public is demanding 
more environmentally responsible solutions. Wal-Mart, Target, 
and many others are demanding increasingly sustainable 
packaging with higher environmental benefits. The demands for 
those benefits are part of a larger shift in consumer 
preferences and this is becoming as important to our industry 
as access to raw materials.
    Our industry views the Increasing Manufacturing 
Competitiveness through Improved Recycling Act of 2012 as a 
critical next step in advancing the practice of recycling and 
improving operating efficiency and environmental impact for the 
aluminum industry. Thirty-nine percent of consumers have said 
they are confused about what is good or bad for the 
environment. Quality data allows consumers, as well as industry 
and policymakers, to successfully examine new proposals and 
plans for improving recycling using facts and not suppositions.
    Aluminum recycling provides a massive opportunity for 
energy efficiency. The metallic, elemental nature of aluminum 
means that it is infinitely recyclable. It can be recycled over 
and over with no loss of quality or down-cycling. In fact, 75 
percent of all aluminum ever produced since 1888 is still in 
use today. Recycling aluminum saves 95 percent of the energy 
and emits only 5 percent of the greenhouse gases associated 
with primary aluminum production. In the simplest form, our 
business case for recycling is based on the fact that 
increasing recycling increases energy efficiency. The aluminum 
industry's position in favor of recycling is not green washing; 
it is green business.
    The most widely recognized application for aluminum is the 
beverage can. The aluminum can is the most recycled beverage 
container in America. In an average can, 68 percent is recycled 
content, the highest amount of any beverage container. In 2010, 
58 percent of aluminum cans were recycled in the United States. 
This bill, to improve our understanding of municipal recycling, 
is vital for our industry to bring consumer recycling in line 
with aluminum recycling in other sectors, which is greater than 
90 percent. It will also be vital to help our understanding of 
how we might raise our can recycling rate to the level of other 
countries, many of which are in the area of 90 percent or 
higher.
    Our industry has established a goal of reaching a 75 
percent aluminum can recycling rate by 2015. We are engaged in 
various initiatives, including establishing and funding a new 
organization called the Curbside Value Partnership with other 
materials manufacturers. CVP works with municipalities to 
increase consumer participation in existing recycling programs. 
Our evaluation of the program indicates that it routinely 
results in a 17 percent increase in household participation, 
translating into a 22 percent increase in tons of recycled 
materials. Data generation and analysis is a requirement for 
cities implementing this program and is a key to the program's 
success.
    A robust material tracking and data gathering system is 
necessary because of the complexities of materials recycling 
value chains. For example, differences in material weights and 
scrap value complicate consumer behavior choices. Aluminum's 
material characteristics of high strength to weight and 
corrosion resistance allow for uses that weigh less than other 
materials performing the same job. Then measuring recycling by 
comingled weight undercuts the full benefit of aluminum 
recycling to the environment and its subsidizing role in most 
curbside programs. This is just one of many considerations 
which improved municipal waste data could influence.
    The aluminum industry is committed to increasing recycling 
because it is good business and good for the environment and 
recycling efficiency should be a key consideration in our 
country's energy strategy. For these reasons, the aluminum 
industry is ready to work with EPA to improve our understanding 
of the waste and recycling streams.
    There are many proposed solutions to increasing recycling 
in America, but industry and policymakers first need the best 
data possible to understand which method is best.
    I look forward to answering questions. I would thank the 
committee again and the chairman. And thank you.
    [The prepared statement of Mr. Johnson follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Shimkus. Thank you.
    And now I would like to have Ms. Lynn Bragg. Thank you 
again for appearing and you are recognized for 5 minutes.

                   STATEMENT OF LYNN M. BRAGG

    Ms. Bragg. Thank you, Chairman Shimkus, Ranking Member 
Green, members of the subcommittee. I am Lynn Bragg, President 
of the Glass Packaging Institute, representing the North 
American glass container manufacturing industry. Thank you 
again for inviting me.
    After hearing EPA testify, some of you may be wondering why 
this bill is needed. Explaining how we make glass containers I 
think will help answer that need.
    Glass is originally made from sand, soda ash, and 
limestone. The raw materials are melted together at extremely 
high temperatures in a glass furnace creating molten glass that 
is formed into beer, wine, and food and beverage containers. 
New glass containers also can be made from recycled glass or 
cullet. When we make new containers by adding cullet, we can 
operate our furnaces at a much lower temperature, reducing our 
energy use and emissions.
    In terms of production, approximately 25 billion glass 
containers were made in the United States in 2010. Our member 
companies can make over 3 million beer bottles a day at a 
single plant. At each of the 48 glass container plants in 22 
States, recycled glass energy savings keeps our plants 
competitive against increasing global competition, helps the 
plants comply with Clean Air Act regulations, and keeps 18,000 
people employed in high-paying salaried and hourly jobs.
    GPI member companies use cullet on a daily basis and 
compete heavily to buy it. Understanding the data behind the 
recycled glass we purchase and from which recycling system it 
comes from is a critical need for our industry. We know the 
majority of Americans are committed to recycling. As 
manufacturers, we rely on their voluntary efforts. There is a 
good chance that you recycle using the green or the blue bin. 
Have you ever wondered where the recyclables end up? We believe 
most people do and the same is true for the manufacturing 
industries that purchase these recyclables.
    Currently, EPA issues a report on municipal solid waste 
generation, recovery, and disposal. In that report, EPA 
estimates the total amount of recyclables entering the 
municipal waste stream and the total amount recovered. However, 
EPA defines recovery as materials removed from the waste stream 
for the purpose of recycling. For glass, EPA also counts as 
recovery uses such as roadbed construction. Just collecting 
materials or using materials as roadbed is very different from 
the actual recycling of glass into new containers and other 
products such as fiberglass.
    Based on EPA's current reports, we have a rough idea of how 
many glass containers are collected. Glass plants know how much 
recycled glass they buy. We know that there is a big difference 
between those numbers. And right now, what happens between 
collection and actual recovery by a manufacturer is a black 
box. We don't know what happens to the material that gets lost 
along the way. We suspect that much of it becomes what the 
recycling industry calls residue, material lost to 
manufacturers after spending time and money collecting and 
sorting that material.
    Again, why are we talking to Congress about this issue? 
Isn't recycling a State and local issue? We emphatically agree 
that it is but we also believe the Federal Government has a 
role in collecting and disseminating data. For example, the 
Commerce Department through the U.S. Census reports vital data 
on the production and sale of goods. That doesn't mean it 
regulates those activities.
    We think that EPA can play an important role in recycling 
by collecting information and making it available to everyone. 
With new data points on recycling that consider manufacturing 
and markets, State and local governments can evaluate different 
options for recycling. Municipalities may want to tailor their 
recycling contracts to reach different outcomes, and industry 
may find opportunities to form partnerships to recover more 
recyclable materials collected.
    Manufacturers frequently meet with States, local 
governments, the solid waste industry, brand owners, and 
environmental groups, and the need for better recycling data is 
frequently discussed. In fact, I am attending such a meeting 
today. We all share the goal of increasing recycling, but the 
first asked typically involves information, what do we know, 
what we don't know.
    While the Discussion Draft doesn't allow EPA to force 
organization to respond to information requests, we think EPA 
will get a better response than if industry were asking the 
questions. We know EPA will not get perfect information but it 
will be an improvement. Right now, EPA issues their MSW report 
without an approved information collection request under the 
Paperwork Reduction Act. That means by law EPA can only ask 
nine people for information. This draft does not waive the 
Paperwork Reduction Act, but by requiring EPA to collect better 
data on recycling, EPA can go to OMB and get approval for an 
ICR, be able to ask more than nine people for information, and 
produce a report that will help all of us better understand our 
municipal recycling programs. I would also note that the draft 
is only intended to address the MSW recycling stream and not 
the industrial pre-scrap.
    Thank you. I would be happy to answer any questions.
    [The prepared statement of Ms. Bragg follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Shimkus. Thank you very much.
    Now, I recognize Mr. Jonathan Gold. Sir, you are recognized 
for 5 minutes.

                   STATEMENT OF JONATHAN GOLD

    Mr. Gold. Thank you, Chairman Shimkus, Ranking Member 
Green, and members of the committee. My name is Jonathan Gold. 
I am the senior vice president of the Recovery and Recycling 
Division of the Newark Group. The Newark Group is one of the 
oldest 100 percent recycled paperboard companies in the United 
States. This year, we are celebrating our 100th anniversary. In 
1916, my grandfather started the North Shore Recycled Fibers 
paper recovery plant in Salem, Massachusetts, but I swear I 
haven't been with the company that long--only about 35 years--
but paper recycling is in my blood.
    I want to thank the committee for the opportunity to 
present the views of the Paper Recycling Coalition on the 
importance of data collection for recovered materials.
    The PRC is comprised of 10 companies who manufacture 100 
percent recycled paperboard and containerboard--basically 
cereal, cake boxes, game boards, construction tubes, corrugated 
boxes and beverage containers. PRC member companies operate 
over 400 facilities in 42 States employing over 50,000 American 
workers in well-paying jobs.
    Recycling reduces the need for new landfills, saves energy, 
creates jobs, reduces greenhouse gas emissions, conserves 
natural resources, and supplies valuable raw materials to 
American industry. It is the last point that brings me here 
today.
    Despite the well noted growth of electronic media, the 
demand for recycled paper products is increasing every year. 
Our society continues to be paper-intensive for numerous 
reasons, including a rising demand for packaging. Recovered 
paper is the only ``raw'' material that can be used by the 100 
percent recycled paper industry, and by doing so, we are 
extending the fiber supply. Our raw material comes from homes, 
offices, and businesses all across this country. Each State is 
responsible under the Resource Conservation and Recovery Act, 
known as RCRA, for municipal solid waste (MSW) programs and the 
systems for collection vary widely from State to state and from 
municipality to municipality, producing vastly different 
results.
    For more than 20 years, EPA has been generating an annual 
report on the Characterization of Municipal Solid Waste. It 
currently details how much MSW is collected and how much is 
diverted. However, that report has never been able to disclose 
how much of that diverted material is actually reaching the 
manufacturers who can turn it into a new product and how much 
all of these recycling efforts are benefiting our society.
    Let me give you an example from my own personal experience. 
In the State of Massachusetts, which reports a 39 percent 
municipality recycling rate, the material that comes into our 
mill has a contamination level as high as 15 to 18 percent 
because of broken glass, plastic bottles, plastic bags, and 
steel cans, for example, as well as other unmentionables. When 
you factor in wet weather, this level can be as high as 22 
percent on a day-to-day situation.
    To a large extent this is caused by single-stream 
collection, a curbside collection process that allows for all 
material to be collected in one bin versus separating paper 
from all other collected material. This material is still 
counted by the Commonwealth as recycled. What is too 
contaminated for us to recycle in our mills ends up at the 
landfill casting serious questions on the ``true'' recycling 
rate. Improved data would help us get a better handle on the 
problem in order to identify solutions.
    We know that there is a great deal more that can be done to 
improve basic collection. For example, every 2 weeks, we could 
fill Fenway Park in Boston to the top with paper that is not 
recovered for recycling. That is raw material and jobs that we 
will never see due to the inefficiencies in the collection 
system.
    The paper industry has done an astonishing job of 
increasing the recycling rate for paper 81 percent over the 
past 20 years so that now we are collecting 66.8 percent of all 
the paper available for recycling. However, with an ever-
increasing domestic and international demand, we need better 
data tools to identify the paper that we are not currently 
accessing in order to stimulate U.S. job growth.
    The data collection bill under consideration today would 
focus EPA's attention on the material that is actually 
recovered for reuse in manufacturing. This material is the bulk 
work of our business and essential to maintain our position as 
a vital and vibrant American industry.
    In the current economic climate, municipalities are 
struggling to maintain funding for material collection. We 
understand their problems and this proposal will not add to 
their burden. We want to be part of the solution to that 
problem, but we need better data in order to target our 
approach to increasing collection.
    We support this basic principle of this bill but remain 
adamantly opposed to any government mandates on the private 
sector because they distort market outcomes and efficiencies.
    Mr. Chairman, this concludes my oral testimony. I would ask 
that the committee consider my written testimony on this matter 
on behalf of the Paper Recycling Coalition. I would be happy to 
answer any questions from members of this committee. Thank you.
    [The prepared statement of Mr. Gold follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Shimkus. Thank you very much.
    The chair now recognizes Mr. John Skinner from the Solid 
Waste Association of North America. Sir, 5 minutes.

                  STATEMENT OF JOHN H. SKINNER

    Mr. Skinner. Thank you. Good morning. Mr. Chairman, members 
of the committee, it is a pleasure for me to be testifying here 
about the importance of recycling of solid waste. It is a 
strategy that has significant environmental energy efficiency 
and economic benefits. We strongly support recycling and we 
reviewed the draft discussion legislation and have some 
comments that we would like to make about it.
    Let me just tell you a little bit about who I represent. 
Our members, 8,000 of them, are the people that collect, 
process, recycle, and dispose of municipal solid waste across 
the country. They are the professionals that are on the 
frontline carrying out those programs. Thirty-five percent of 
them work for the private sector; 65 percent of them work for 
the public sector and we have 45 chapters in North America.
    Our mission is professional development of our members--
education, training, scholarships, networking, certification, 
and publications and we provide our members with the tools 
necessary to do their jobs the best way throughout the year.
    Recycling is very important to our members. It is 
environmentally and economically sound and we provided an 
extensive array of programs for our members in the areas of 
recycling. I have listed some of those programs in my testimony 
and in the interest of time I am not going to go over them, but 
it is a wide range of training, education, certification, 
research, and publication programs.
    Turning now to the draft legislation, we certainly agree 
that the manufacturing sector can increase its competitiveness, 
it can reduce its energy cost, reduce its emission levels, and 
improve the amount of materials that are diverted from 
landfills through the increased use of recycled materials. That 
is a goal that we entirely support. And we acknowledge that 
increasing energy efficiency in the manufacturing sector can 
increase employment, including higher-paying jobs. And we 
acknowledge also that recycled materials are perfectly 
acceptable feedstocks to produce new materials and products.
    It is important that the data specified in the bill lead to 
increased use of recycling, and communities have many variables 
that they consider, but the key determinants of whether they 
recycle a material or ship it for recycling are cost and 
revenues. It is an economic decision and I am sure you all know 
the situation that our local governments are in these days with 
respect to their tax revenues and their economics.
    We agree that improved data are very important and more 
informed decision-making by policymakers will help private 
sector users of recyclables increase their understanding of 
what recyclable materials might be available. We also agree 
that the report called for under Section 4 of the draft bill 
would provide very detailed and very useful information at a 
level of detail which is not available now and we think that 
that is extremely good goal.
    We had three areas of concerns that we raised: the time 
frame for collecting this data, the cost estimate for 
collecting it, and the authorities that will be necessary to 
obtain that data. We have seen the changes that have been made 
in the current draft of the bill and we think they go a long 
way in that direction. The 2-year time frame is much better 
than the earlier time frame that was indicated, and the fact 
that the authorization would be an annual authorization and not 
a 1-year authorization annual over 3 years would also be a very 
important direction to move in.
    I also heard Administrator Stanislaus say that he thought 
that $800,000 a year and longer than 2 years was necessary, and 
I think that we should listen to his reasons for that. There 
might be some very good reasons for that. Tracking the flow of 
materials throughout the economy from collector to broker to 
manufacturer could be a difficult task and could take 
considerable resources.
    Finally, whether this type of information can be obtained 
from voluntary information requests and existing published data 
is questionable to obtain it at this level. I am not saying we 
shouldn't try, but we may come up short and not get the type of 
information that we need and we might need to go back and look 
at other options. And we recommend that the committee consider 
ways of obtaining that information and increasing voluntary 
information submittals.
    And we do recognize the fact that this bill would provide 
EPA with the authority to conduct more wide-scale surveys, 
would give them the ability to go and get approval of those 
surveys under the Paperwork Reduction Act, but the question is 
here how to increase the response rates. So let me say we would 
be pleased, my association would be very pleased to work with 
EPA on this effort and we would encourage our members to 
cooperate with it. We believe the information would be very 
useful and helpful to both the suppliers and the users.
    Thank you, Mr. Chairman, be happy to answer any questions.
    [The prepared statement of Mr. Skinner follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Shimkus. Thank you, Mr. Skinner.
    Now, I will recognize myself for the first 5 minutes.
    And I will start with, you know, just the basic 
observation: Recycling is good for everybody. There is really 
no downside. So the question stems from in the new Congress, 
the new House specifically, we are trying to shy away from 
Federal mandates, mandating things. And so part of this bill, 
my understanding, is obviously getting the EPA to collect 
information but a voluntary system. So a question is do you 
think the Discussion Draft, when introduced, should mandate 
Federal recycling, recycling systems, or recycling goals? Mr. 
Johnson, briefly if you can.
    Mr. Johnson. No. We believe actually that those solutions 
do exist. There are many of them, and this bill does exactly 
what it should, which is to collect more information and 
reevaluate the way we analyze that data so that we can make 
those decisions after that fact.
    Mr. Shimkus. Great. Ms. Bragg?
    Ms. Bragg. I agree with Mr. Johnson. The Discussion Draft 
and future legislation should not prescribe or mandate 
recycling programs at the Federal level. It shouldn't be 
mandating anything.
    Mr. Shimkus. Mr. Gold, you sounded a little impassioned 
about this in your opening statement. Do you concur?
    Mr. Gold. Absolutely not. It is not practical or 
economical.
    Mr. Shimkus. OK, great. Mr. Skinner?
    Mr. Skinner. Certainly not at this stage. There are a lot 
of things that can be done to increase recycling short of going 
that far.
    Mr. Shimkus. Do you support any Federal mandates or 
regulation as a way of increasing recycling?
    Mr. Johnson. Not at this time. We don't have enough 
information to know what those programs would look like and how 
they would affect our industry and our material stream.
    Mr. Shimkus. Ms. Bragg?
    Ms. Bragg. No.
    Mr. Shimkus. Mr. Gold?
    Mr. Gold. No.
    Mr. Shimkus. Mr. Skinner?
    Mr. Skinner. Not regulations or legislation but I think the 
Federal Government can play a very significant leadership role 
in encouraging people to do these types of activities.
    Mr. Shimkus. And let me just follow up on that because 
obviously in the opening statement it seems like everybody is 
pretty supportive, I think. Mr. Skinner, you were raising some 
concerns but not, ``Stop, no way.'' And as I mentioned earlier, 
I am co-chair of the Recycling Caucus. One of the reasons why 
was to make sure that on the corporate side people really 
understood how much is recycled there and it is really a solid 
waste issue.
    Good data could help us answer one question that perplexes 
me--single-source versus multiple bins. And Mr. Gold, you 
raised the contaminated or tainted material in a single source 
issue. But the reality is we don't know nationally how much is 
lost. There is no way we can provide information to local 
communities or you all to say single source is good because, my 
observation, more people find it easier to put everything in a 
single bin. Simplicity helps. So there may be more generated 
recyclable material but then we forget about that portion that 
may be tainted and thrown out. But we don't know that answer. 
Is that correct?
    Mr. Johnson. That is absolutely correct. That is one of the 
problems that we have pointed out repeatedly and we cite the 
need for a study of this type. We need to know more about what 
is happening to the material between collection and 
reclamation.
    Mr. Shimkus. Ms. Bragg?
    Ms. Bragg. That is absolutely correct. Mr. Johnson's answer 
is perfect really. We have the same issue.
    Mr. Shimkus. And you are with the glass recyclers, is that 
right?
    Ms. Bragg. Yes.
    Mr. Shimkus. So I toured the waste-to-energy plant across 
the river, which is another huge option. They are very 
successful in even reclaiming some of the metals, but glass, I 
think, melts and that is one thing that if it is a single 
source goes to waste-to-energy, I don't think the glass portion 
is recoverable. Do you know anything about the waste-to-energy 
and do you lose all that?
    Ms. Bragg. I would have to do some additional searches on 
waste-to-energy in terms of glass, but just in terms of 
recycling, if the glass isn't collected properly, it does break 
into very many small pieces and usually gets entangled with 
paper and other liquids and becomes a big mess.
    Mr. Shimkus. Is colored glass a challenge anymore for your 
sector or----
    Ms. Bragg. No.
    Mr. Shimkus. No.
    Ms. Bragg. No.
    Mr. Shimkus. Mr. Gold?
    Mr. Gold. Nationally, no, but internally with our own 
company we know it is 10 to 15 to 18 percent contaminants from 
single stream. It is unscrambling the scrambled egg.
    Mr. Shimkus. Right. Yes. Mr. Skinner?
    Mr. Skinner. Yes, the important thing is to understand why 
municipalities go for single-stream or single sort. It is an 
economic decision. It makes collection of the material much 
less costly and collection is 80 percent of your costs of 
managing of wastes. If you have to send down multiple trucks to 
pick up multiple streams or you have sorting by the collector, 
the collection is much more expensive. You can put it all in 
one container. It reduces the collection cost if you can 
collect it automated. So that is the reason that they are 
moving in that direction. But I do acknowledge that when you do 
that, you have to be very, very careful about your materials 
recovery facility and sort out the contaminants so that the 
products that you are producing are valuable.
    Mr. Shimkus. And I will end on that. But I guess my final 
point is I think centralized voluntary information is better 
than no information to start making these decisions either from 
the municipal waste collection side or the folks who want to be 
end users of recycled products. There is a gap there of things 
we don't know. And so I am very interested in this process and 
we will follow it forward with great consultation with my 
friend, Mr. Green, who I would like to recognize for 5 minutes 
for questions.
    Mr. Green. Thank you, Mr. Chairman. Again, I thank our 
panel for being here.
    This question is for anyone on the panel. Many States and 
communities already issue reports on the outcomes of their 
recycling initiatives. Is there a reason this type of survey 
cannot be attached to those current reporting regimens?
    Mr. Johnson. Are we still going in order?
    The first reason is scope and scale. Many municipalities 
attack their questions about their municipal material streams 
at the local level and answer those questions. Industries need 
information about the national and international movement of 
our materials and the material flow.
    Mr. Green. OK. Anybody else? Is that pretty well everyone 
is agreed?
    What makes you think that voluntary responses to the EPA 
would differ from an initiative that your associations could 
jointly initiate? I know, for example, I represent five 
refiners and they cooperate all the time on surveys. It is 
pretty regular. Would that be any different than what your 
associations would cooperate on?
    Ms. Bragg. Speaking for the glass industry, we do have our 
own internal surveys but the type of information that we are 
looking for in terms of this gap is something that we couldn't 
do alone in terms of our own industry because we are really 
looking for additional information where we can get a better 
handle on the end markets. And we also need to know the gap in 
the middle, what is happening to it, and that is very difficult 
for us. We wouldn't be able to handle that on our own.
    Mr. Green. But a good example, Mr. Skinner represents the 
group of recyclers and when somebody brings in--they bring in 
glass, they bring in paper--and in the case of city of Houston 
where I live they bring in e-waste that, you know, you have to 
separate from everything else. It seemed like that the 
cooperation you could get a lot of this good information, you 
know, with your associations doing it with the folks who 
actually are picking up and are the receiver of those 
recyclable items.
    Ms. Bragg. You are making a very good point but many of us 
are involved in groups that are seeking answers to why we 
aren't getting more recycled material back. We are working 
cooperatively together but we really do feel that if the 
government, if EPA could request this additional information we 
are asking for, we would have a better overall picture than 
trying to piece it all together ourselves.
    Mr. Green. OK. Mr. Skinner, you represent a huge number of 
groups--I assume municipalities but also private recyclers 
like----
    Mr. Skinner. That is correct.
    Mr. Green [continuing]. In my area in incorporated Houston 
Waste Management has a recycling program that a community may 
decide because it typically increases their cost to do that, so 
you represent both private and public entities?
    Mr. Skinner. That is correct.
    Mr. Green. When your members pick up that waste, I assume 
they divide it up or do they just have the different 
associations that specialize in it. You know, does a glass 
person come in and get your glass or aluminum person come in or 
paper?
    Mr. Skinner. It generally goes to a facility after it is 
collected and depending upon how it is collected, it may need 
to be sorted further and sorted considerably if it is collected 
as comingled. And then it is basically baled and goes to a 
broker and the broker would take it to the ultimate end 
markets. So there is a process where they work through the 
existing scrap markets to get that material.
    In response to your prior question, I think there is good 
data from the trade associations on how much material is being 
used and how it is being used within their manufacturing. The 
data that is limited is the supply side, what is coming out of 
the municipalities and how much more could come out of 
municipalities. That data is available. Some of it is on Web 
sites and a good data collection effort could get it and bring 
it all together. You might not get a complete national picture 
but I think working on the supply side is important.
    Mr. Green. Let me ask in my last 30 seconds I have a real 
interest in e-waste and I partner with the city of Houston on a 
number of these e-waste events. And Mr. Johnson, you talked 
about the end user because I know a lot of my scrap paper is 
actually sent overseas. I don't worry about how they dispose of 
scrap paper as much as I am how they are doing and it has been 
very publicly, internationally how some countries take e-waste 
and literally it is a danger to the folks that do it. I want to 
be able to track that.
    And I know that is not today's hearing but, Mr. Chairman, 
somewhere along the way I would like to see how we track what 
e-waste is picked up now and how it is tracked to where we know 
what is being done with it. And I appreciate the time.
    Mr. Shimkus. The gentleman's time is expired.
    The chair recognizes the gentleman from Colorado, Mr. 
Gardner, for 5 minutes.
    Mr. Gardner. Thank you, Mr. Chairman. And I know my 
colleague and I and Mr. Latta from Ohio have a number of issues 
in common in terms of concerns when it comes to recycling and 
the facilities that we have in our districts--bottle 
manufacturing and glass manufacturing, glass packaging--and so, 
Ms. Bragg, I will direct a couple of questions your way. In 
your testimony you claim that better recycling will help 
energy-intensive manufacturers reduce their energy costs and 
greenhouse gas emissions. How does the bill that we are 
discussing today fit with that goal? How does it relate to 
international competition and job preservation right here in 
the United States?
    Ms. Bragg. Thank you for the question. When a glass 
manufacturer uses cullet instead of raw materials to make 
glass, we can operate our furnaces at lower temperatures. So 
once the cullet has already been melted into glass, it is much 
easier to melt it again. And lower temperatures mean less 
energy use. The glass industry relies mostly on natural gas to 
run our furnaces and less energy use means lower emissions. And 
they are, of course, directly related.
    All of this helps us compete internationally and keep jobs 
here in the U.S. As you would expect, profit margins are slim 
and glass companies compete for customers by lowering their 
prices, but you can't set your prices so low that the company 
stops making money. And then if that happens, you have to close 
your doors and people lose their jobs. And unfortunately, some 
of our members have lost customers to foreign glass plants, 
which really don't operate under the same regulatory 
environment that we have here in the U.S.
    So we need to do everything we can to cost-effectively keep 
our energy costs and air emissions down. And really using 
cullet instead of those raw materials to make glass really 
helps us achieve those goals.
    Mr. Gardner. And one thing I didn't realize until visiting 
the manufacturing facility is the importation of recycled glass 
into the country. Is that still occurring regularly?
    Ms. Bragg. You know----
    Mr. Gardner. Within the country, excuse me, like from, you 
know, taking recycled glass from California to Colorado to meet 
needs at the plant there.
    Ms. Bragg. Yes, absolutely. Cullet is transported from 
unbelievable locations to be used in a glass manufacturing 
plant thousands of miles away.
    Mr. Gardner. And the EPA believes that the bill requires 
that it sample every single community and recycling facility in 
the United States. Do you agree with that assessment?
    Ms. Bragg. No, we do not. I mean even right now the EPA 
uses statistical sampling and extrapolation of data and we 
don't believe they would have to go to every single 
municipality across the United States.
    Mr. Gardner. Thanks. And you mentioned that the information 
collection request in your testimony, what is that and why does 
that matter?
    Ms. Bragg. Well, as I mentioned in my testimony, the 
information collection request is under the Paperwork Reduction 
Act, and it limits the amount of people you can ask for that 
information. So again with just nine people the reports are 
estimates that are really extrapolated from a few surveys. And 
it is my understanding that the EPA has not even tried to get 
an information collection request to request any recycling data 
like the data we are asking for in the Discussion Draft. So 
again the Discussion Draft doesn't waive the Paperwork 
Reduction Act but it does require EPA to collect information in 
accordance with an ICR. So they would then have to put together 
the survey, seek public comment, submit the surveys to OMB, and 
given the legislation, we would expect OMB to approve the 
surveys. So they would be able to ask more people than just 
nine.
    Mr. Gardner. Thank you, Ms. Bragg, and I yield back my 
time.
    Mr. Shimkus. Would the gentleman yield for his last 50 
seconds?
    Mr. Gardner. Absolutely.
    Mr. Shimkus. We are a market-based competitive majority in 
the House right now. And why wouldn't just the purchases of 
recycled goods send a price signal? There will be a break point 
where adding the recyclable material to your production process 
is profitable based upon EPA regs, energy costs, and the like, 
and when it is not. I will have to get an answer to this 
question for my colleagues. Why wouldn't a price signaled by 
you all on the cost of an input product send a signal we want 
more recycled cans? We want more recycled glass. We want more 
recycled paper. Why isn't that working?
    Mr. Johnson. I would make two points. First is because that 
signal is not received by the disparate end users of the 
products who are the first step in recycling the material. So 
the average household is not recycling aluminum cans because 
they can get back the individual monetary value of each of 
those cans. They are doing it because it is the right thing to 
do for the environment and because it is an available service 
in their community.
    The second point I would make is that those price signals 
are being sent through our economy. Each year, the aluminum 
that is produced in the United States is almost half recycled 
material and we have a shortage still of material coming into 
our processes. So we are sending that signal but the first and 
possibly the second step of the scrap stream is never going to 
receive that signal.
    Mr. Shimkus. Ms. Bragg, same?
    Ms. Bragg. I can't really speak directly to price. Our 
industry is especially very wary of antitrust. We really abide 
very strictly by the antitrust regulations, so individual 
companies could respond to that. I know as individual 
companies, they work every day with recyclers and processers.
    Mr. Gold. I think in the paper side the two major grades 
that are recovered are corrugated and residential mixed papers, 
and we are way over 70, almost 80 percent recovery rate on 
those two. There is not a lot more that can be recovered unless 
you go into the landfills and start to pull back.
    Mr. Shimkus. Mr. Skinner?
    Mr. Skinner. If the price signal is strong enough and if 
there are contracts for the long-term, municipalities will put 
in the collection programs to get that material out. And that 
is what needs to be done. It has to be a program that you can't 
turn on and off municipal recycling. It has to be something 
that you sustain over a period of time.
    Mr. Shimkus. Great. Well, we appreciate your testimony and 
thank you for your time.
    And with that, we will empanel the fourth panel. Thank you.
    We welcome the fourth panel, and I will do as I did with 
the third panel, introduce you all at one time and then ask you 
to give your opening statements. So with us is Ms. Susana 
Hildebrand, Professional Engineer, Chief Engineer, Texas 
Commission on Environmental Quality. And we want to welcome 
you. Mr. Water Bradley, Director of Government and Industry 
Relations with the Dairy Farmers of America, and having the 
largest dairy county in the State of Illinois, I particularly 
welcome you.
    Mr. Bradley. Great.
    Mr. Shimkus. It is not huge but it is the largest.
    Mr. Ed Hopkins, Director, Environmental Quality Program 
with the Sierra Club, sir, welcome back.
    And with that your full statements are in the record. As 
always, you have 5 minutes and we would like to start with you, 
Ms. Hildebrand.

   STATEMENTS OF SUSANA M. HILDEBRAND, CHIEF ENGINEER, TEXAS 
COMMISSION ON ENVIRONMENTAL QUALITY; WALTER BRADLEY, GOVERNMENT 
    AND INDUSTRY RELATIONS REPRESENTATIVE, DAIRY FARMERS OF 
   AMERICA; AND ED HOPKINS, DIRECTOR, ENVIRONMENTAL QUALITY 
                      PROGRAM, SIERRA CLUB

               STATEMENT OF SUSANA M. HILDEBRAND

    Ms. Hildebrand. Good afternoon. Again, my name is Susana 
Hildebrand and I am the chief engineer at the Texas Commission 
on Environmental Quality. Thank you for the opportunity to 
speak today.
    The Texas Commission on Environmental Quality regularly 
weighs matters that affect the environment and economy. 
Decisions made by the TCEQ are based on the law, common sense, 
good science, and fiscal responsibility. The Superfund Common 
Sense Act, H.R. 2997, is also based on these principles. This 
hearing is not about whether manure should be regulated. Animal 
agricultural operations that produce manure are already 
adequately regulated under other environmental laws such as the 
Federal Clean Water Act and Clean Air Act, as well as State-
specific authorities in Texas--the Texas Water Code and Texas 
Clean Air Act.
    The question is whether additional regulatory burdens of 
CERCLA are necessary for manure. H.R. 2997 would remove the 
question from the purview of the courts and EPA ensuring that 
resources dedicated to CERCLA are used to address the problems 
that Congress had intended.
    The Comprehensive Environmental Response, Compensation, and 
Liability Act (CERCLA), as amended by the Superfund Amendments 
and Reauthorization Act (SARA), authorizes Federal cleanup of 
releases of hazardous substances, imposes liability for 
cleanup, and provides restoration or replacement of natural 
resources affected by a release. CERCLA defines a hazardous 
substance as a substance designated under various acts, 
including the Clean Air Act and the Clean Water Act.
    CERCLA also specifies reporting requirements when specific 
quantities of hazardous substances are released into the 
environment. CERCLA Section 103(a) excludes, ``federally 
permitted'' releases, including discharges addressed through a 
National Pollutant Discharge Elimination System (NPDES) permit 
from the release notification requirements of CERCLA. This 
exclusion is appropriate because effective regulatory and 
enforcement mechanisms already exist under the applicable laws, 
including the Clean Water Act and the Clean Air Act.
    Specific agricultural operations, such as the confined 
animal feeding operations (CAFOs), are already regulated under 
the NPDES program and the Texas Pollutant Discharge Elimination 
System (TPDES program) in Texas. TPDES permits regulate 
discharges from CAFOs; they include best management practice 
requirements for manure management. With regard to air 
emissions, facilities in Texas are subject to the Texas Health 
and Safety Code, through the Texas Clean Air Act, and must be 
authorized prior to construction.
    In considering issuance of a permit, the TCEQ considers 
possible nuisance odors and addressing handling and storage of 
manure. Violations of State law or agency regulations, 
including odor and nuisance conditions, are subject to 
enforcement. Congress should make it clear that current 
environmental laws are adequate and that regulation under 
CERCLA is not necessary.
    Moreover, as the United States EPA describes in its 
Superfund Web site, the CERCLA law was enacted following the 
discovery of high-risk toxic waste dumps such as Love Canal in 
New York and Times Beach in Missouri in the 1970s. Also, 
according to EPA, ``this law created a tax on the chemical and 
petroleum industries and provided broad Federal authorities to 
respond directly to releases or threatened releases of 
hazardous substances that may endanger public health or the 
environment.'' CERCLA was never intended to address the removal 
or cleanup of agricultural sites that are comprised of manure 
created by biological processes, as defined by H.R. 2997.
    The CERCLA and the Federal Superfund program have had 
tremendous benefit in cleaning up legacy pollutants from some 
of the Nation's worst toxic waste sites. Applying CERCLA to 
agricultural operations that produce manure is not consistent 
with its original intent and will likely result in the 
diversion of Federal, State, and local resources away from the 
cleanup of sites that contain hazardous substances and truly 
present the most significant risks to human health and the 
environment. Manure clearly does not fit into this category.
    Regulating manure as a hazardous substance would be unduly 
burdensome to business owners who by and large manage manure 
properly. Congress should make it clear that manure is not a 
hazardous substance regulated under CERCLA. If Congress does 
not act to exclude manure, then it will allow the courts or EPA 
to define CERCLA applicability, resulting in ambiguous, 
duplicative, and inappropriate requirements to other mechanisms 
already available to State regulators charged with the mission 
of protecting human health and the environment. There is no 
additional benefit to regulating manure under CERCLA as there 
are regulatory programs already in place to address 
environmental concerns.
    The facts are clear: stringent requirements meant for truly 
hazardous substances, such as those imposed under CERCLA, 
should not apply to manure.
    [The prepared statement of Ms. Hildebrand follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    
    Mr. Shimkus. Thank you very much.
    Now, I would like to recognize Mr. Bradley for 5 minutes.

                  STATEMENT OF WALTER BRADLEY

    Mr. Bradley. Thank you, Mr. Chairman, members of the 
committee.
    I am former New Mexico Lieutenant Government Water Bradley, 
and today, I am here to represent the 15,000 farmer owners of 
Dairy Farmers of America. And we are in strong support of H.R. 
2997. This measure will once and for all affirm that the very 
small livestock manure that is used to fertilize our Nation's 
organic crops is not a hazardous or toxic substance under 
Superfund.
    The last few years have posed extraordinary challenges for 
producers across the country but especially in my region where 
a majority of feed is imported from other regions. And in 2009 
and 2010, our producers dealt with a very volatile milk price 
and input costs, a supply-and-demand imbalance, and other world 
factors which drove down the price of milk and our operating 
margins. Many lost a generation's worth of equity while others 
left the business. In New Mexico, most every one of our 
survivors had to take on more debt.
    Prices, feed costs, supply-demand fluctuations, and weather 
are all things farmers cannot always control. The uncertainty 
that these and other factors bring to the industry is 
startling, but one thing we can deliver, that we should be 
delivering to our dairymen is regulatory surety. I ask this 
committee to do just that, specifically make clear the intent 
of Congress to not regulate manure under CERCLA and EPCRA. We 
are not seeking an exemption from the Federal Clean Water Act 
or the Clean Air Act or similar State laws including any 
Federal or State worker protection laws. We are merely seeking 
clarification under CERCLA and EPCRA that animal manure does 
not necessitate an emergency response, nor does it create a 
Superfund site.
    It should also be pointed out that both CERCLA and EPCRA 
include exemptions for animal operations. The example of the 
definition of hazardous chemical under CERCLA excludes any 
substance to the extent it is used in agriculture operations. 
Without this clarity, the courts can and ultimately will be 
left to redefine the regulation. And some lawyers have already 
jumped on this bandwagon. In fact, in 2009, the Middleton Law 
Firm in Georgia and the Spear Law Firm in Missouri formed the 
Center to Close and Expose Animal Factories and have filed 
numerous lawsuits around the country on all sizes of farms.
    I don't believe Congress ever intended for manure to be 
regulated as a hazardous substance, and recent history 
demonstrates that Congress understands the value of manure to 
America and has encouraged its creative use. Laws have been 
passed and initiatives undertaken to encourage rural America to 
participate in the renewable energy field through the 
development of on-farm energy production by producing biogas, 
electricity, and biodiesel derived from manure. This very 
Congress has acknowledged manure's value by funding research, 
passing tax credits and mandates for its use. How can we 
possibly ask dairy producers to invest millions of dollars in 
technologies to support the Nation's energy needs without 
addressing the threat that manure will be classified as a 
hazardous substance?
    And how are organic farmers going to fertilize their crops? 
Government regulations forbid the use of manufactured 
fertilizers. Besides being used for bioenergy production, 
manure is frequently spread on fields for fertilizer. This 
simple, long-standing, and environmentally respectful practice 
is threatened by the insecurity surrounding manure's possible 
regulation under CERCLA. Conversely, I find it interesting that 
petroleum-based fertilizers, the alternative to the naturally 
occurring fertilizer, are exempt from these laws.
    In closing, I would like to point out that animal 
agriculture operations are subject to a vast array of Federal, 
State, and local environmental laws and authority to deal with 
every conceivable environmental problem presented by them. They 
include the Clean Air Act; the Clean Water Act; the Resource 
Conservation Recovery Act; the Toxic Substance Control Act; 
FIFRA; soil conservation, dust, and odor mitigation controls; 
as well as nuisance laws, which have all been applied broadly 
throughout the country to provide environmental protection from 
every conceivable aspect of animal agriculture operations.
    In New Mexico, we have the Ground Water Protection Bureau, 
the Surface Water Bureau, the Air Quality Bureau, and a set of 
New Mexico dairy rules for permitting of all dairies in 
addition to all the federal rules and regulations I mentioned 
above.
    There has been no indication that environmental laws such 
as these are inadequate and we certainly don't need another 
layer of duplicative regulatory actions. I hope Congress 
addresses this issue and makes clear their original intent that 
manure from animal agriculture is exempt as a CERCLA hazardous 
substance, and I commend Congressman Long for his leadership on 
this issue and hope to soon see H.R. 2997 passed and signed 
into law.
    Thank you, Mr. Chairman, members of the committee, for this 
opportunity.
    [The prepared statement of Mr. Bradley follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    
    Mr. Shimkus. Thank you very much.
    And our final witness for today on the fourth panel is Mr. 
Ed Hopkins, Director of Environmental Quality Programs, Sierra 
Club. Sir, welcome.

                    STATEMENT OF ED HOPKINS

    Mr. Hopkins. Thank you, Mr. Chairman, Ranking Member Green. 
I appreciate being here today representing the Sierra Club. We 
have worked at the local, State, and Federal level for over the 
past decade to protect public health and the environment from 
factory farm pollution.
    Unlike in earlier decades, many of today's large-scale 
operations contains thousands and in some cases even millions 
of animals in closed buildings producing huge volumes of waste 
material that can pose serious threats to air and water. A 
recent GAO report cited an example of one hog operation 
generating some 1.6 million tons of manure a year. That is 
about one-and-a-half times the amount of sanitary waste 
produced by the city of Philadelphia. There is an important 
difference is that the city of Philadelphia has a wastewater 
treatment system; the hog operation doesn't.
    Some large livestock operations now find themselves 
producing more waste than they can responsibly manage by 
traditional land application practices. But instead of adopting 
more advanced treatment or moving waste materials outside of 
watersheds that can't tolerate more pollution, some operations 
simply dump excess manure. Whether they allow leaks and spills 
from manure storage lagoons, spray or apply manure to frozen or 
bear ground, or simply over-apply far in excess of the 
agronomic needs of crops, their practices result in pollution 
of ground and surface waters with excess nutrients and 
dangerous pathogens, arsenic, other toxic mineral compounds, 
and antibiotics.
    As a result, more than half of the States cite animal 
feeding operations as sources of water pollution. Some of these 
operations release more ammonia into the air than industrial 
facilities. The GAO documented many government-sponsored or 
peer-reviewed studies that directly or indirectly linked 
pollutants from animal feeding operations to specific health 
and community environmental impacts.
    That is why cities like Tulsa, Oklahoma, and Waco, Texas, 
desperate to protect their drinking water from upstream manure 
pollution resorted to CERCLA as their only source of relief. 
These cities want to protect their ratepayers from footing the 
bill to clean up somebody else's pollution. In Waco, for 
example, the city had to spend some $54 million to install new 
drinking water treatment systems.
    Passing H.R. 2997 and exempting poultry and livestock waste 
from CERCLA and EPCRA will only exacerbate these real-world 
problems. It will increase threats to drinking water supplies, 
force water users to bear the cost imposed by sloppy operators, 
and withhold important information about air toxics from 
emergency responders in neighboring communities.
    What is the problem that proponents of this bill are trying 
to solve? Are they trying to stop lawsuits threatening farmers? 
There have been three lawsuits to address manure-related 
contamination of water in CERCLA's 32-year history. Isn't it 
completely understandable that communities want polluters held 
responsible for contaminating their drinking water?
    Is it overregulation of agriculture? If anything, poultry 
and livestock operations are grossly under-regulated. Twenty-
nine States report that CAFOs are responsible for pollution. 
Only 40 percent of 20,000 large livestock and poultry 
operations have obtained Clean Water Act permits, and as far as 
I am aware, no livestock or poultry operation in the country 
has a Federal Clean Air Act permit.
    Is it duplication between CERCLA and the Clean Water Act? 
Actually, these laws were carefully crafted to complement one 
another. If an operation has a Clean Water Act permit, the 
releases covered in that permit are shielded from CERCLA. 
CERCLA is the only Federal law that allows for State and local 
governments to recover cleanup costs from those responsible for 
contaminating drinking water supplies.
    Are these laws making manure into a hazardous waste and 
turning farms into Superfund sites? No one is arguing that 
manure itself is hazardous and no one is seeking to ban its use 
as a fertilizer. If a farm operator is using manure as a 
fertilizer, there is no liability under CERCLA. There is a 
specific exclusion for that in the law. Only farmers 
mismanaging manure so as to cause hazardous releases of 
phosphorous and other pollutants into water need be concerned. 
In the history of CERCLA, not one single farm has been named to 
Superfund's National Priority List because of manure.
    This bill does nothing to help responsible farmers. It is 
aimed at eliminating legal safeguards communities can use to 
protect their drinking water supplies and their ratepayers from 
irresponsible livestock and poultry operators that are dumping 
their manure and causing pollution.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Hopkins follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Shimkus. Thank you, Mr. Hopkins. Let me go first to 
you.
    Does the Clean Water Act Section 311(f) authorize recovery 
of costs incurred pursuant to hazardous substance mitigation 
requirements under Section 311(c) of the Clean Water Act?
    Mr. Hopkins. Not to my knowledge, sir.
    Mr. Shimkus. I think it does. And the question would be 
does 2997 change those authorities?
    Mr. Hopkins. The bill doesn't amend the Clean Water Act.
    Mr. Shimkus. So if I am correct and the Clean Water does 
allow recovery, then this bill would not affect the recovery of 
those costs. I mean if we were just following the basic--well, 
obviously, we will have to get you to look at whether the Clean 
Water Act authorizes the recovery of cost, which you don't know 
the answer to. We think it does.
    Mr. Hopkins. My understanding, sir, is that the reason that 
the city of Waco and that Tulsa sued using CERCLA was because 
that was the statute that best provided them the----
    Mr. Shimkus. Yes. Reclaiming my time----
    Mr. Hopkins [continuing]. Possibility of getting----
    Mr. Shimkus. They also sued under the Clean Water Act, and 
that was settled out of court. So it was a settlement between 
the two parties so it never went to full litigation.
    Let me ask the same question on the Solid Waste Disposal 
Act, which authorizes EPA to obtain information or inspect 
facilities where hazardous wastes have been generated, stored, 
disposed of, or transported. Would H.R. 2997 change any of 
these authorities?
    Mr. Hopkins. Well, manure is not a hazardous waste, so it 
wouldn't be covered by----
    Mr. Shimkus. But this is under the Solid Waste Disposal 
Act.
    Mr. Hopkins. Yes, and that is regulating hazardous waste. 
That is what the Solid Waste Disposal Act is. And----
    Mr. Shimkus. But if the hazardous waste is a solid waste--
--
    Mr. Hopkins. Um-hum.
    Mr. Shimkus [continuing]. Then Section 3007 of the Solid 
Waste Disposal Act authorizes the EPA to obtain information and 
inspect facilities. So the question is, in the proposed bill, 
would that change that authority?
    Mr. Hopkins. No, the proposed bill would not change any 
authority----
    Mr. Shimkus. Thank you.
    Mr. Hopkins [continuing]. Under that law.
    Mr. Shimkus. And then Section 7002 of the Solid Waste 
Disposal Act authorizes citizen suits against any person of the 
Federal Government to enforce the solid and hazardous waste 
laws. Would H.R. 2997 change these authorities?
    Mr. Hopkins. No, it doesn't.
    Mr. Shimkus. Again, Section 7003 of the Solid Waste 
Disposal Act gives EPA authority to address imminent hazards 
and issues orders necessary to protect the environment. In fact 
EPA has used this authority before in pursuing a livestock 
operation. Would H.R. 2997 change these authorities?
    Mr. Hopkins. No, sir.
    Mr. Shimkus. Section 112 of the Clean Air Act requires air 
emissions reporting on hazardous air pollutants. Does H.R. 2997 
change these authorities?
    Mr. Hopkins. No, it doesn't amend the Clean Air Act.
    Mr. Shimkus. Thank you. Let me ask, you know, Mr. 
Stanislaus who testified for the EPA, kind of seemed all over 
the board. In one comment, the comment was, ``manure is not 
hazardous waste,'' but then he went down and then flipped and 
said, well, the component parts of the manure are hazardous. 
And I found his testimony quite confusing to the point that I 
just decided to let him finish and move forward.
    Let me go back to Mr. Hopkins. Are you all a party of the 
suit to the EPA which caused the reevaluation and their filing 
under the Federal Register of October 21, 2011? Mr. Stanislaus 
talked about suits filed. Was Sierra Club part of filing a suit 
in this case that helped encourage the EPA to relook at their 
position?
    Mr. Hopkins. You know, Mr. Chairman, I am sorry I don't 
know the answer to that but I would be happy to provide that 
for the record.
    Mr. Shimkus. That would be helpful.
    So finally, Ms. Hildebrand and Mr. Bradley, you did hear 
the EPA, Mr. Stanislaus and his testimony. I will give you each 
20, 25 seconds to anything you heard that you think that we 
might want to raise our concerns.
    Ms. Hildebrand. Well, I am not sure if Mr. Stanislaus is 
not as familiar with the Clean Air Act or the Clean Water Act 
and that is why he answered as he did, but it seemed that he 
thought that there was nothing that the Federal Government 
could do to compel immediate action if there were a lagoon 
overflow or something to that effect. And my information 
indicates that the Federal Water Pollution Control Act Section 
504 is the piece that the EPA administrator could use to seek 
immediate action. And Section 303 of the Clean Air Act allows 
EPA to bring action for relief as well.
    Mr. Shimkus. And it is your job as a commission member to 
ensure the environmental quality of the citizens of the State 
of Texas, is that correct?
    Ms. Hildebrand. Certainly. That role is very important to 
our agency.
    Mr. Shimkus. Thank you very much.
    And Mr. Bradley, just in response.
    Mr. Bradley. I agree with what was just stated and I was a 
little concerned about his wishy-washiness on phosphorous, et 
cetera, which clearly all science says that animal-procured 
phosphorous and phosphates are not the hazardous waste that the 
chemically manmade-produced are. They are totally different and 
I think he got confused there which kind of bothered me.
    Mr. Shimkus. Well, I thank you for your time.
    And now I would like to yield to the ranking member, Mr. 
Green, for 5 minutes.
    Mr. Green. Thank you, Mr. Chairman.
    And I think, you know, we are talking about the difference 
in size. You know, my average dairy farmer in Texas is really 
not that large compared to some other farms. And, in fact, let 
me ask my question of Ms. Hildebrand. One, I appreciate you 
being here. And having served many years in the State 
legislature, I appreciate the diligence of our Texas Commission 
on Environmental Quality or whatever we call it now. I know 
that is the current name.
    Has the State of Texas ever used either Clean Water or 
Clean Air actions against, for example, you know, a huge 
facility whether it be for a large dairy facility or even a--I 
know up around Amarillo and parts of Texas we have huge 
stockyards that are really just factories for our beef. And we 
like it but we also know because the size of those facilities 
it may not be, you know, farmers running or ranchers running, 
you know, a few cattle on their hundred acres, which is not the 
issue. In fact, they probably recycle theirs as compared to a 
larger operation. Has the State ever used a Clean Air or Clean 
Water action on those?
    Ms. Hildebrand. Well, I know of a couple examples and I can 
give those to you in a written response.
    Mr. Green. OK. I would appreciate that.
    Ms. Hildebrand. But in general I would say that typically 
we have the authority under the Clean Air Act, both the Texas 
Clean Air Act and under the Federal and if, for example, there 
was a nuisance condition that occurred as a result of a large 
facility, we would go out and investigate because if a nuisance 
occurred as a result of something like that, we would expect 
there to be a permit issue. And so we would look for permit 
violations whether that is under the TPDS or under the Clean 
Air Act permit that they received, authorization.
    Mr. Green. OK. What if they don't have a permit?
    Ms. Hildebrand. So those emissions that would come from the 
manure for air are authorized under permit-by-rule, so they may 
not have an explicit permit that they received from the State 
but they are authorized. Or they are operating under air 
emission allowances that are provided for in the water permit.
    Mr. Green. OK. Mr. Hopkins, I know there was a 2003 
National Academy of Sciences issued a report on pollution from 
animal feeding operations. The Academy found that multiple 
operations emitted multiple pollutants including ammonia, 
hydrogen sulfide, particulate matter, and greenhouse gases. In 
2011, EPA estimated 80 percent of the U.S. ammonia emissions 
were from agricultural operations. What are the potential 
health impacts from large-scale ammonia emissions?
    Mr. Hopkins. Well, ammonia emissions can cause a host of 
respiratory problems, eye, ear, nose, and throat problems. It 
is also a precursor to fine particular matter. Somewhere 
between 9 and 11 percent of the Nation's fin particulate matter 
has its origin in ammonia, so that is a very serious health 
problem as you know and that can, again, cause all kinds of 
respiratory and cardiovascular problems.
    Mr. Green. I only have a couple minutes left. We heard 
earlier today that other environmental laws and just now that 
address the risks and the liability and reporting requirements 
under Superfund are redundant and unnecessary. Are there 
provisions under other environmental laws that would require 
cleanup of contamination from manure and ensure that 
responsible parties will pay for that cleanup?
    Mr. Bradley. I will take a shot at that----
    Mr. Green. OK.
    Mr. Bradley [continuing]. Congressman Green. In the State 
of New Mexico, part of an answer to your earlier question, you 
know, the State of New Mexico took action on a spill into the 
Rio Grande River by a dairy. That dairy was sued; that dairy 
was ordered to clean up and to change their structure. They 
were in violation of their permit so they paid a fine, they 
paid their money, and the State of New Mexico does have a 
Superfund that they have created for spills because a lot of 
these people don't have any money. We take all we got and then 
we go from there.
    Mr. Green. OK. So New Mexico has a State Superfund I guess 
for this so it is not under----
    Mr. Bradley. But we also use the Clean Water Act, which is 
in coordination with our Surface Water Ground Bureau.
    Mr. Green. Ms. Hildebrand, is that similar to what we have 
in Texas? You know, I am under a disadvantage. I have a very 
urban area and, believe me, I have refineries and chemical 
plants fence-to-fence, so I am real familiar with that. But, 
you know, my ag area is just a little bit different so I am 
learning.
    Ms. Hildebrand. Certainly, as I understand it, the Texas 
Health and Safety Code and the Texas Water Codes allow for us 
to pursue relief from those facilities if there were an 
environmental issue that was resulting from their actions.
    Mr. Green. Including assigning responsibility to the party 
and making them pay?
    Ms. Hildebrand. I believe so.
    Mr. Green. OK. Mr. Hopkins?
    Mr. Hopkins. Well, I would say it is not just a question of 
whether State regulatory agencies have the authority to do that 
but whether other parties like cities have the authority to do 
it. And I think that is an important facet that CERCLA provides 
that maybe these State laws don't.
    Mr. Green. The example--and I only have a few seconds 
left--I know Waco and Waco had to sue. I assume they were suing 
under not only State law but also city ordinances in Waco, 
Texas? Because I think in Houston, you know, we have ordinances 
for public nuisances that could be applied maybe unless they 
are exempted by State law.
    Ms. Hildebrand. I think that the crux of their lawsuit--and 
again it was settled so it never went--the majority of their 
issue was violations associated with the Clean Water Act. 
Certainly CERCLA entered into it and there was a question about 
the phosphorous that I think Mr. Bradley talked about, but at 
the heart of the issue I think it was a Clean Water Act 
question.
    Mr. Green. OK. Mr. Hopkins, let me give you final if you 
have any--well, I am out of time--but just so you could 
respond. The current law is not available even to 
municipalities if they have an ordinance?
    Mr. Hopkins. Yes, I think that the reason Waco used CERCLA 
was because they didn't want their ratepayers to foot the bill 
for the pollution that they were having to clean up.
    Mr. Green. Yes. Well, and obviously I know about my 
Superfund sites and thank the Texas Environmental Quality, EPA 
on light speed to put a facility--and we are still working on 
that by the way. The encapsulation I understand is not working.
    But anyway, thank you, Mr. Chairman, for the time.
    Mr. Shimkus. The gentleman is quite welcome.
    And we would like to thank the panel for being here and 
answering our questions. I think one thing to consider on CAFOs 
is the location. You know, most CAFOs are going to be in rural 
America addresses the ammonia debate. Concentration is a 
concern on air emissions but when you have got a CAFO that is 
in rural America, rural Illinois, and it is 20 miles from the 
nearest community, the ammonia issue and the intensity is not--
I mean I think we have still got Clean Water Act issues, 
compounding issues, those are still in the debate. We think 
those are kind of covered.
    But having said this, Mr. Bradley?
    Mr. Bradley. I just wanted to make a quick clarification if 
I might about the Waco because I hear a lot about Waco in here 
today and there is a lot of bad information floating around. I 
think a little more research ought to be done----
    Mr. Shimkus. Well, if the gentleman would yield, we are 
going to ask for the final judgment to be filed as part of this 
record because it addresses some of the questions that were 
raised I think especially on phosphorous that you had raised 
and the difference----
    Mr. Bradley. Right.
    Mr. Shimkus [continuing]. On that so----
    Mr. Bradley. OK.
    Mr. Shimkus [continuing]. A brief----
    Mr. Green. Mr. Chairman, I know I am familiar also with the 
problem in rural areas, but what we are having in Houston--
because I had a lot of dairy farmers up in Tomball, Texas, some 
good families, but because of the suburbanization of it, you 
know, the city has moved out there and it has made some 
conflicts that folks, when they moved there, they didn't 
realize there was a dairy farm down the road. We have that same 
problem in other areas, too. But it can happen particularly in 
the suburbs growing out the rural----
    Mr. Shimkus. Those city slickers coming out to rural 
America, they ought to----
    Mr. Green. Yes.
    Mr. Shimkus [continuing]. Make sure they know what they are 
buying.
    So we have three submissions we would ask unanimous consent 
for. The first one is a letter from the National Association 
for PET Container Resources.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    
    Mr. Shimkus. The other one we will keep the record open for 
10 days and make sure we are able to see the letter that you 
had asked to be submitted, which is from the National 
Association of SARA Title III Program Officials.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    
    Mr. Shimkus. And then the last one, which I need to just be 
corrected on, it is a brief on the Waco case. So without 
objection----
    Mr. Green. Whose brief is it?
    Mr. Shimkus. Well, we have already run it by the----
    Mr. Green. Oh, have you? OK. Mr. Chairman, let me just look 
at it and see to see, you know----
    Mr. Shimkus. OK. We will----
    Mr. Green. Having done briefs, if my client wanted me to do 
one, I would do it.
    Mr. Shimkus. Well, we will do the same thing. We will do 10 
days, you guys have time to either accept or reject on that.
    Mr. Green. OK.
    Mr. Shimkus. And appreciate your time and effort and again 
thank you for coming.
    And this hearing is adjourned.
    [Whereupon, at 12:55 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                                 <all>

</pre></body></html>
